<html>
<title> - REEVALUATING U.S. POLICY IN CENTRAL ASIA</title>
<body><pre>[Senate Hearing 111-433]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-433
 
                REEVALUATING U.S. POLICY IN CENTRAL ASIA

=======================================================================



                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-492                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
EDWARD E. KAUFMAN, Delaware

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Blank, Stephen J., Professor, Strategic Studies Institute, United 
  States Army War College, Carlisle, PA..........................    39
    Prepared statement...........................................    42
    Response to question submitted for the record by Robert P. 
      Casey, Jr..................................................    62
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
    Prepared statement...........................................     5
Krol, Hon. George A., Deputy Assistant Secretary of State, Bureau 
  of South and Central Asian Affairs, Department of State, 
  Washington, DC.................................................     9
    Prepared statement...........................................    13
    Responses to questions submitted for the record by Senator 
      John F. Kerry..............................................    52
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    58
Olcott, Martha Brill, senior associate, Russia and Eurasia 
  Program, Carnegie Endowment for International Peace, 
  Washington, DC.................................................    32
    Prepared statement...........................................    35
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    61
Sedney, Hon. David S., Deputy Assistant Secretary of Defense, 
  Afghanistan, Pakistan, and Central Asia, Department of Defense, 
  Washington, DC.................................................    16
    Prepared statement...........................................    20

                                 (iii)



                        REEVALUATING U.S. POLICY
                            IN CENTRAL ASIA

                              ----------                              


                       TUESDAY, DECEMBER 15, 2009

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Shaheen, Kaufman, and Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. OK. Thank you very much for being here. The 
hearing of the Foreign Relations Subcommittee on Near Eastern 
and South and Central Asian Affairs will now come to order.
    Today, the subcommittee meets to examine United States 
policy in Central Asia, a critical region to United States 
national security interests.
    This hearing will examine why Central Asia is important, 
what United States policy interests are in the region, and how 
the United States will implement these policies in the coming 
years.
    The Obama administration has just completed an internal 
review of our policy toward Central Asia, and we look forward 
to hearing the results of that review today.
    The countries of Central Asia are strategically important 
to the United States, due in large part to geography. The 
region shares borders with Afghanistan, Iran, China, and 
Russia. United States interests in recent years have centered 
on the role that Central Asia plays in Operation Enduring 
Freedom, but it is also important that we examine the issues 
and challenges that face the region in isolation.
    On March 10, 2009, Director of National Intelligence Dennis 
Blair noted in congressional testimony that, ``Highly 
personalized politics, weak institutions, and growing 
inequalities,'' in Central Asia make these countries, ``ill-
equipped to deal with the challenges posed by Islamic violent 
extremism, poor economic development, and problems associated 
with energy, water, and food distribution.'' The political 
systems of countries in the region are fragile, by virtue of 
their post-Soviet legacy and varying degrees of instability 
since their independence.
    Some observers have commented that Central Asia is more a 
geographic identification than a region with common goals, 
ethnicities, and identities.
    The United States should encourage countries in the region 
to become more fully integrated, to advance their own stability 
and prosperity, and tackle longstanding issues related to 
terrorism and national resource allocation.
    So, while this hearing will focus on the main issues 
confronting the region, any examination of United States policy 
toward Central Asia must start with the conflicts in 
Afghanistan and Pakistan. In that same testimony, Director of 
National Intelligence Blair warned that the growing challenges 
to Central Asia's stability ultimately, and I quote, ``could 
threaten the security of critical U.S. and NATO lines of 
communication to Afghanistan through Central Asia.'' Through 
the Northern Distribution Network--which we know by the acronym 
NDN--Central Asia plays a key role with regard to 
transportation of nonlethal supplies for our troops in 
Afghanistan. With an increase in NATO troops headed to the 
region, and an increasingly dangerous supply line through 
Pakistan, Central Asia potentially becomes even more important 
as we seek to get materiel into Afghanistan.
    As these plans move forward, I have concerns about the 
capacity of the Northern Distribution Network. While the 
administration made considerable progress in negotiating 
overland transport rights with Russia during the recent 
Presidential summit, there is still work remaining on securing 
agreements with Kazakhstan and Uzbekistan on the transit of 
military cargo. We need to remain vigilant, to make sure that 
there is proper oversight and accountability, as it relates to 
the Northern Distribution Network.
    The NDN also provides an important opportunity for local 
development in the region. As the United States increasingly 
relies upon Central Asia for logistical support in Afghanistan, 
opportunities for local development will increase. As our 
effort in Afghanistan ramps up, the United States should 
consider the long-term sustainability and implications for the 
local economies of Central Asia, for when we eventually scale 
down our Afghanistan presence in the future.
    There are reports that Central Asian countries have 
concerns that the NDN supply routes will result in an increase 
in extremist attacks on the supply lines. I look forward to 
hearing how we'll address those concerns today.
    The conflict in Afghanistan and increasing violence in 
Pakistan have threatened to spill over into Uzbekistan and 
Tajikistan, as both countries contend with Islamic extremist 
movements. As the United States increases its force presence in 
Afghanistan, and as Pakistan ramps up efforts against the 
Taliban, there is concern that these elements could seek 
shelter across northern borders. I hope our witnesses will 
address what the increased troop deployment in Afghanistan will 
mean for the region.
    I'm also interested in hearing about cooperation between 
our embassies in Central Asia and in Kabul and here in 
Washington.
    The administration has taken the correct strategic approach 
in binding Afghanistan and Pakistan together as we confront 
threats in the Federally Administered Tribal Areas and along 
the Durand Line.
    Central Asia also is important as part of this equation, 
and we need an increasingly seamless regional approach. So, 
while the NDN and Afghanistan are critical elements of our 
engagement with and in Central Asia, they cannot and should not 
be the sole focus of our engagement. As we're looking to build 
long-term relationships with both Afghanistan and Pakistan, we 
must also enhance our engagement--our broad engagement--with 
the countries of Central Asia.
    I don't underestimate the difficulty of this, but Central 
Asia poses a policy challenge to United States decisionmakers, 
and our relationships in the region are complicated by 
longstanding concerns about undemocratic governance and human 
rights abuses. These circumstances call for deft engagement, 
and I am confident that our diplomats are capable of navigating 
a wide range of issues that reflect our national security and 
economic interests, as well as our values.
    When looking at the region apart from the war in 
Afghanistan, our primary security concern must be in the realm 
of nonproliferation. The Obama administration has emphasized 
that proliferation of nuclear weapons and materiel is one of 
the most severe threats facing United States national security. 
Unsecure nuclear weapons and fissile materiel should be a top 
priority of our policy.
    Central Asia plays a key role in global nuclear affairs. 
Throughout the cold war, nuclear weapons were stored and ready 
for launch across this region. At the end of the cold war, the 
international community had limited success in removing the 
remaining Soviet nuclear arsenal and fissile materiel from 
newly independent states in the region. Due to courageous 
leadership in countries like Kazakhstan, as well as here in the 
United States by visionaries like Senators Lugar and Nunn, the 
threat of nuclear materiel falling in the hands of terrorists 
was diminished. While these countries voluntarily relinquished 
their nuclear arsenals after the fall of the Soviet Union, 
today the region is still engaged in activities relevant to the 
proliferation of weapons of mass destruction; namely, uranium 
mining, plutonium production, and the fabrication and testing 
of biological and chemical weapons.
    So, while there have been positive developments in the 
region on this issue, there remains a significant cause for 
concern. On the one hand, countries like Kazakhstan have 
responsibly upheld and consented to international 
nonproliferation norms. And in September 2006, the five Central 
Asian companies--countries, I should say--established a nuclear 
weapons-free zone. On the other hand, Central Asian countries 
rank among the worst--the worst and most corrupt countries in 
the world, according to Transparency International's 2009 
report.
    Whenever--as anyone who knows this area of our policy 
knows--whenever there's a nexus of nuclear materiel and 
corruption, the potential for this materiel to end up in the 
hands of the wrong people increases, and, I would argue, 
increases exponentially.
    With Kazakhstan's desire to increase its commercial nuclear 
market share, and its willingness to host an international fuel 
bank, this issue warrants further and serious examination. We 
must also recognize that Central Asia faces a host of 
considerable challenges as it continues to develop as a region.
    Tajikistan, which shares a border with Afghanistan, could 
become, according to some--I'm quoting from some of the reports 
we'll hear today--could--could become a failed state. A brutal 
civil war from 1992 to 1997 left Tajikistan with very little 
infrastructure and a tenuous peace. Swaths of the country 
remain ungoverned, and drug traffickers, particularly along the 
southern border with Afghanistan, are able to operate with near 
impunity. Greater Tajik-Afghan cooperation is needed on border 
control, counternarcotics, and law enforcement. USAID and other 
international assistance agencies are performing impressive 
work to contribute to the rebuilding process. But, also, their 
resources are limited, and the need is, unfortunately, growing.
    Uzbekistan has sought to build closer ties with the United 
States after the 2005 closing of the K2 military base, which 
provided support for Operation Enduring Freedom. In 2008, 
Uzbekistan reportedly began to allow some NATO forces to 
transit through the country, and in 2009 General Petraeus 
signed an accord allowing for military education exchanges and 
training.
    These are important developments, but serious governance 
and human rights concerns remain. The terrible legacy of the 
Andijan massacre in July 2005, which resulted in the killings 
of hundreds of antigovernment protestors, colors Uzbekistan's 
relations with the international community to this day. 
Unfortunately, Uzbekistan's political opposition has very 
limited space within which to organize, and civil society 
groups are closely scrutinized by the government.
    After the K2 base closed, many of the activities were 
transferred to the Manas Base in the Kyrgyz Republic. Earlier 
this year, the United States signed a new agreement with 
Bishkek, in which NATO supplies and troops could be run through 
the Manas Transit Center. So, United States-Kyrgyz relations 
saw another boost when Under Secretary Bill Burns visited 
there, last July, to announce the formation of a bilateral 
commission on trade and investment. These are welcome 
developments, and we appreciate the Kyrgyz Republic's 
engagement on these issues. The country has its own history in 
contending with terrorist threats and the reports of increased 
religious extremism, particularly in the rural areas of the 
country.
    Turkmenistan is perhaps the least understood country in the 
region, as the country experienced its first transition to 
power since the breakup of the Soviet Union. In the transition 
in 2006, there was hope for a more open and transparent system. 
While there have been small steps, progress on this front has 
remained slow. Turkmenistan does have a considerable impact on 
energy prospects of its neighbors, its pipeline agreements with 
Russia and Iran, and its increased cooperation with China 
through a project that would send Turkmen gas through 
Uzbekistan and Kazakhstan to China. The United States has 
encouraged Turkmenistan's participation in the Nabucco Energy 
Project, and I look forward to hearing from the witnesses about 
this project.
    Kazakhstan has grown in wealth, has also sought to play a 
more prominent role in the international community. In 2010, 
Kazakhstan will assume its--the chair and office of the 
Organization for Security and Cooperation in Europe, so-called 
OSCE. The development of--this development, I should say, has 
not been without controversy. The OSCE is the premier 
organization in Europe and the former Soviet Union for election 
observation, as well as monitoring for human rights violations. 
According to independent monitoring organizations, Kazakhstan 
has not fared well in these areas, but did commit to a set of 
serious reforms in Madrid last year, which would look to reform 
democratic institutions in the country.
    We know that water and energy are central issues in this 
region. We know that our witnesses today will address those 
issues, as well.
    We should also recognize the central role in Central Asia 
that Russia is continuing to play. Russia has sought to play an 
expanded role in the region in recent years, primarily in the 
field of security cooperation, as well as energy projects. 
While government is in--governments, I should say--in Central 
Asia, strive to maintain their autonomy, several have signed 
basing agreements and military cooperation pacts with Moscow.
    In closing, I'd like to commend the work of USAID in the 
region. As it has sought to address the myriad complex issues 
with limited resources, from challenges related to water, 
energy, drug trafficking, food security, and democratic 
development, USAID certainly has its hands full. I look forward 
today on how U.S. policy interests overlap with our investments 
in the region's development.
    This overview just begins to scratch the surface of the 
challenges that countries of this region face, moving forward. 
The United States has a wide and varied interest in Central 
Asia as a region, starting with support for ongoing military 
operations in Afghanistan, as I mentioned before. This cannot 
be the sole focus, however. Our engagement in the region must 
be broader than that. From the threats to loose nuclear 
materiels to the rise of violent Islamic extremism, from the 
challenges posed by poverty, weak democratic institutions, as 
well as challenges posed by energy, U.S. engagement in the 
region requires a strategic and long-term approach. This region 
does not attract nearly enough attention here in Washington, as 
we know. Glad to see there's a good bit of a crowd here today 
to listen to our witnesses. But, I welcome this opportunity.
    Before I introduce the panels, I want to say that I cut 
back my statement and I want to make sure my full statement is 
made part of the record.
    [The prepared statement of Senator Casey follows:]

           Prepared Statement of Hon. Robert P. Casey, Jr., 
                     U.S. Senator From Pennsylvania

    This hearing of the Foreign Relations Subcommittee on Near Eastern 
and South and Central Asian Affairs will now come to order. Today, the 
subcommittee meets to examine U.S. policy in Central Asia, a critical 
region to U.S. national interests. This hearing will examine why 
Central Asia is important, what U.S. policy interests are in the region 
and how the United States will implement these policies in the coming 
years. The Obama administration has just completed an internal review 
of U.S. policy toward Central Asia, and we look forward to hearing the 
results of this review today.
    The countries of Central Asia are strategically important to the 
United States due in large part to geography. The region shares borders 
with Afghanistan, Iran, China, and Russia. U.S. interests in recent 
years have centered on the role Central Asia plays in Operation 
Enduring Freedom, but it is also important that we examine the issues 
and challenges that face the region in isolation. On March 10, 2009, 
Director of National Intelligence Dennis Blair noted in congressional 
testimony that ``highly personalized politics, weak institutions, and 
growing inequalities'' in Central Asia make these countries ``ill-
equipped to deal with the challenges posed by Islamic violent 
extremism, poor economic development, and problems associated with 
energy, water and food distribution.'' The political systems of 
countries in the region are fragile by virtue of their post-Soviet 
legacy and varying degrees of instability since declaring independence. 
Some observers have commented that Central Asia is more a geographical 
identification than a region with common goals, ethnicities, and 
identities. The United States should encourage countries in the region 
to become more fully integrated to advance their own stability and 
prosperity and tackle longstanding issues related to terrorism and 
natural resource allocation. So while this hearing will focus on the 
main issues confronting the region, any examination of U.S. policy 
toward Central Asia must start with the conflicts in Afghanistan and 
Pakistan.
    In his March 2009 testimony, DNI Blair warned that the growing 
challenges to Central Asia's stability ultimately ``could threaten the 
security of critical U.S. and NATO lines of communication to 
Afghanistan through Central Asia.'' Through the Northern Distribution 
Network (NDN), Central Asia plays a key role with regard to the 
transportation of nonlethal supplies for our troops in Afghanistan. 
With an increase in NATO troops headed to the region, and increasingly 
dangerous supply lines through Pakistan, Central Asia potentially 
becomes even more important as we seek to get materiel into 
Afghanistan. As these plans move forward, I have concerns about the 
capacity of the NDN. While the administration made considerable 
progress in negotiating overland transport rights with Russia during 
the Obama-Medvedev summit, there is still work remaining on securing 
agreements with Kazakhstan and Uzbekistan on the transit of military 
cargo. We need to remain vigilant to make sure that there is proper 
oversight and accountability of the NDN.
    The NDN also provides an important opportunity for local 
development in the region. As the United States increasingly relies on 
Central Asia for logistical support for Operation Enduring Freedom, 
opportunities for local development will increase. As our effort in 
Afghanistan ramps up, the United States should consider the long-term 
sustainability and implications for the local economies of Central Asia 
for when we eventually scale down our Afghanistan presence in the 
future.
    There are reports that Central Asian countries have concerns that 
NDN supply routes will result in an increase in extremist attacks on 
the supply lines. I look forward to hearing how we will address the 
security concerns of the host governments in defending the NDN.
    The conflict in Afghanistan and increasing violence in Pakistan 
have threatened to spill over into Uzbekistan and Tajikistan as both 
countries contend with Islamist extremist movements. As the United 
States increases its force presence in Afghanistan and as Pakistan 
ramps up efforts against Tehrik-i-Taliban, there is concern that these 
elements could seek shelter across their northern borders. I hope our 
witnesses will address what the increased troop deployment in 
Afghanistan will mean for the region.
    I am also interested in hearing about cooperation between our 
Embassies in Central Asia and in Kabul and here in Washington. The 
administration has taken the correct strategic approach in binding 
Afghanistan and Pakistan together as we confront threats in FATA and 
along the Durand Line. Central Asia is also an important part of this 
equation, and we need an increasingly seamless regional approach.
    So while the NDN and Afghanistan are critical elements of our 
engagement in Central Asia, they cannot and should not be the sole 
focus of our engagement. As we are looking to build long-term 
relationships with Afghanistan and Pakistan, we also must enhance our 
engagement with the countries of Central Asia.
    This will not be easy. Central Asia poses a policy challenge to 
U.S. decisionmakers--our relationships in the region are complicated by 
longstanding concerns about undemocratic governance and human rights 
abuses. These circumstances call for deft engagement and I am confident 
that our diplomats are capable of navigating a wide range of issues 
that reflect our national security and economic interests as well as 
our values.
    When looking at the region apart from the war in Afghanistan, our 
primary security concern must be in the realm of nonproliferation. The 
Obama administration has emphasized that the proliferation of nuclear 
weapons and materiel is one of the most severe threats facing U.S. 
national security. Unsecure nuclear weapons and fissile materiel should 
be a top priority.
    Central Asia has long played a role in global nuclear affairs. 
Throughout the cold war, nuclear weapons were stored and ready for 
launch across the region. At the end of the cold war, the international 
community had limited success in removing the remaining Soviet nuclear 
arsenal and fissile materiel from the newly independent states in the 
region. Due to courageous leadership in countries like Kazakhstan, as 
well as here in the United States by visionaries like Senators Richard 
Lugar and Sam Nunn, the threat of nuclear materiel falling into the 
hands of terrorists was diminished.
    While these countries voluntary relinquished their nuclear arsenals 
after the fall of the Soviet Union, today the region is still engaged 
in activities relevant to the proliferation of weapons of mass 
destruction, namely: uranium mining, plutonium production, and the 
fabrication and testing of biological and chemical weapons.
    So while there have been positive developments in the region on 
this issue, there remains significant cause for concern. On one hand, 
countries like Kazakhstan have responsibly upheld and consented to 
international nonproliferation norms and in September 2006, the five 
Central Asian countries established a nuclear weapons free zone. On the 
other hand, the Central Asian countries rank among the most corrupt 
countries in the world, according to Transparency International's 2009 
report. Whenever there is a nexus of nuclear materiel and corruption, 
the potential for this materiel to end up in the hands of the wrong 
people increases. With Kazakhstan's desire to increase its commercial 
nuclear market share and its willingness to host an international fuel 
bank, this issue warrants further and serious examination.
    We must also recognize that Central Asia faces a host of 
considerable challenges as it continues to develop as a region.
    A brutal civil war from 1992-1997 left Tajikistan with very little 
infrastructure and a tenuous peace. Swaths of the country remain 
ungoverned and drug traffickers, particularly along the southern border 
with Afghanistan, are able to operate with near impunity. Greater 
Tajik-Afghan cooperation is needed on border control, counternarcotics, 
and law enforcement issues. USAID and other international assistance 
agencies are performing impressive work to contribute to the rebuilding 
process, but their resources are limited and the need is unfortunately 
growing.
    Uzbekistan has sought to build closer ties with the United States 
after the 2005 closing of the Karshi-Khanabad (or K2) military base 
which provided support for Operation Enduring Freedom. In 2008, 
Uzbekistan reportedly began to allow some NATO forces to transit 
through the country and in 2009 General David Petraeus signed an accord 
allowing for military educational exchanges and training. These are 
important developments, but serious governance and human rights 
concerns in Uzbekistan remain. The terrible legacy of the Andijon 
massacre in July 2005, which resulted in the killing of hundreds of 
antigovernment protestors, colors Uzbekistan's relations with the 
international community to this day. Unfortunately in Uzbekistan 
political opposition has very limited space within which to organize 
and civil society groups are closely scrutinized by the government.
    We must also acknowledge that Uzbekistan has faced serious threats 
of Islamic extremism. As recently as last May, in Khanabad and Andijon 
the Islamic Movement of Uzbekistan and the Islamic Jihad Group of 
Uzbekistan both carried out attacks. Illustrating the truly regional 
nature of the threat we face, both groups have also been active in 
Pakistan, attacking government targets in reported retaliation for 
Islamabad's support for the United States.
    After K2 closed, many of its activities transferred to the Manas 
Base in the Kyrgyz Republic. Earlier this year, the United States 
signed a new agreement with Bishkek in which NATO supplies and troops 
could be run through the Manas Transit Center. United States-Kyrgyz 
relations saw another boost with Under Secretary Bill Burns' visit 
there last July to announce the formation of a United States-Kyrgyz 
bilateral commission on trade and investment. These are welcome 
developments and we appreciate the Kyrgyz Republic's engagement on 
these issues. The country has its own history in contending with 
terrorist threats and there are reports of increased religious 
extremism, particularly in rural areas of the country. This all comes 
alongside mounting reports that the democratic promise of the Tulip 
Revolution has unfortunately not been fulfilled. As the Kyrgyz Republic 
faces these growing challenges, I hope that its government will choose 
a path that respects the important civil liberties of its citizens.
    Turkmenistan is perhaps the least-understood country in the region. 
As the country experienced its first transition in power since the 
breakup of the Soviet Union in 2006, there was hope for a more open and 
transparent system. While there have been small steps, progress on that 
front has been slow. Turkmenistan does have a considerable impact on 
the energy prospects of its neighbors. Turkmenistan has pipeline 
agreements with Russia and Iran and has increased cooperation with 
China through a project that would send Turkmen gas through Uzbekistan 
and Kazakhstan to China. The United States has encouraged 
Turkmenistan's participation in the Nabucco energy project and I look 
forward to hearing from the witnesses on these prospects.
    As Kazakhstan has grown in wealth, it has also sought to play a 
more prominent role in the international community. In 2010, Kazakhstan 
will assume the chair-in-office of the Organization for Security and 
Cooperation in Europe. This development has not been without 
controversy. The OSCE is the premier organization in Europe and the 
former Soviet Union for election observation as well as monitoring 
human rights. According to independent monitoring organizations, 
Kazakhstan has not fared well in these areas, but did commit to a 
series of reforms in Madrid last year which would look to reform 
democratic institutions in the country. Civil society in Kazakhstan has 
made strides in recent years, particularly as it monitors government 
reform efforts, but the recent imprisonment of leading human rights 
activist Yevgeney Zhovtis has had a chilling effect on his colleagues 
in the country.
    Water and energy are continued sources of tension among the 
countries of Central Asia. Those with energy resources lack water 
resources and vice versa. There are yearly disputes between downstream 
countries (Kazakhstan, Turkmenistan, and Uzbekistan) who are heavy 
consumers of water for agricultural needs and the less wealthy, 
upstream nations of the Kyrgyz Republic and Tajikistan, which rely on 
the downstream countries for electricity.
    Russia has sought to play an expanded role in the region in recent 
years primarily in the field of security cooperation and cooperation on 
energy projects. While governments in Central Asia strive to maintain 
their autonomy, several have signed basing agreements and military 
cooperation pacts with Moscow. In 1996, Kazakhstan, Kyrgyzstan, and 
Tajikistan joined with Russia and China to form the Shanghai 
Cooperation Initiative, to promote security along the countries' common 
borders and combat terrorism. Renamed the Shanghai Cooperation 
Organization, Uzbekistan joined the group in 2001 and now hosts the SCO 
Regional Anti-Terrorism Structure. Some observers have commented that 
this focus on counterterrorism is an attempt by Russia and China to 
displace the U.S. role in the region.
    In closing, I would like to commend the work of USAID in the region 
as it has sought to address myriad complex issues with limited 
resources. From challenges related to water, energy, drug trafficking, 
food security and democratic development, USAID certainly has its hands 
full. I look forward to hearing today how U.S. policy interests overlap 
with our investments in the region's development.
    This overview just begins to scratch the surface of the challenges 
that the countries of this region face moving forward. The United 
States has a wide and varied interests in Central Asia, starting with 
support for ongoing military operations in Afghanistan. But as I have 
said, this cannot be the sole focus of our engagement in the region. 
From the threats of loose nuclear materiels to the rise of Islamic 
extremism, from the challenges posed by poverty and weak democratic 
institutions to the possibilities posed by new energy relationships, 
U.S. engagement in the region requires a strategic and long-term 
approach. This is a region that does not attract nearly enough 
attention among policymakers in Washington. Therefore, I welcome this 
opportunity to discuss some of these issues more in-depth and look 
forward to hearing from our group of esteemed witnesses.

    Senator Casey. We have two excellent panels today. And 
these are, of course, panels of experts, not just commentators, 
to examine all these issues in the allotted time that we have.
    From the administration or the first panel, I'd like to 
welcome Deputy Assistant Secretary of State George Krol. 
Ambassador Krol has a long history with the State Department, 
serving as United States Ambassador to Belarus, as well as 
holding positions in Russia, Ukraine, and India. He has played 
a key role in the government's effort to reexamine U.S. policy 
in the region, and we look forward to his overview of these 
issues.
    Ambassador Krol, thank you for your service to our country 
and for joining us here today.
    I also would note--I want to note for the record--
Ambassador Krol, is it true you were born in Pittsburgh?--
That's good. Well, that's not the only reason you're here, but 
that's important--pretty important reason to have you here, as 
well.
    I'd also like to welcome Deputy Assistant Secretary of 
Defense David Sedney. David covers Central Asia, as well as 
Afghanistan and Pakistan in the Office of the Assistant 
Secretary of Defense for Asian and Pacific Security Affairs. We 
appreciate him taking the time to come here today to testify. 
David has served in several challenging posts for the State 
Department, as Deputy Chief of Mission in Beijing, as well as 
Kabul. He served as Director for Afghanistan at the National 
Security Council, as well as Senior Advisor to U.S. Ambassador 
to the U.N., John Negroponte. As U.S. security concerns are 
front and center in Central Asia, I look forward to hearing 
from him on the National Distribution Network and other key 
defense and security initiatives in the region.
    Thank you, David, for being here and for joining us this 
morning.
    We're honored to be joined by these two respected experts 
from the United States Government.
    And we may have other comments by other members of the 
committee. I know that Senator Risch may be joining us soon, 
and if he has an opening statement, we'll certainly turn to him 
then.
    I just want to turn to our witnesses. If our witnesses 
could do your best to keep your statements to about 7 minutes, 
that would help. And even if you can summarize your full 
statements, the full text of your statement will be made part 
of the record. Even if you haven't asked for that, we will do 
that, if that's OK with you.
    Ambassador Krol, we'll start with you. We're going to go in 
alphabetical order. But, we're grateful for your testimony and 
your presence here today.

STATEMENT OF HON. GEORGE A. KROL, DEPUTY ASSISTANT SECRETARY OF 
STATE, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Krol. Thank you, Mr. Chairman.
    I welcome this opportunity today to speak with you 
regarding United States policy toward Central Asia. Today's 
hearing is particularly timely, especially after the 
President's December 1 speech outlining the way ahead in 
Afghanistan and Pakistan. The Obama administration places a 
high priority on building principal partnerships in the Central 
Asia region, in pursuit of our common interests.
    You've asked, ``Why is Central Asia important to the United 
States?'' and I would say that the United States has an 
important interest in promoting stability, prosperity, 
security, human rights, and economic and political reform in 
Central Asia.
    The region's economic growth and democratic political 
development can produce a more durable stability and more 
reliable partners for the United States, in addressing common 
yet critical global challenges, from nonproliferation to 
counternarcotics to energy security.
    The massive energy resources of Central Asia are important 
for the world economy, ensuring a diversity of sources and 
transit routes, while also delivering new economic 
possibilities in the region itself.
    Central Asia plays a vital role in our Afghanistan 
strategy. Just look at a map of the region, and you see that 
three of the five Central Asian states border Afghanistan. A 
stable future for Afghanistan depends on the continued 
assistance of its Central Asian neighbors, just as a stable, 
prosperous future for the Central Asian states depends on 
bringing peace, stability, and prosperity back to their 
immediate neighbor, Afghanistan.
    The countries of Central Asia are already contributing much 
to international efforts in Afghanistan. For example, 
Uzbekistan is supplying electricity to Kabul. The Transit 
Center at Manas Airport in Kyrgyzstan is crucial as a 
logistical hub for transporting personnel and for refueling 
operations. Turkmenistan provides humanitarian assistance to 
Afghanistan. Tajikistan provides overflight clearance. And 
Kazakhstan provides both humanitarian assistance and it has 
just announced a new $50 million program to educate Afghan 
students in Kazakhstan universities. And the Northern 
Distribution Network is becoming a vital route for getting 
supplies into Afghanistan for coalition forces.
    As for the current U.S. policy priorities in the region, 
since the early 1990s, the primary United States policy goal in 
Central Asia has been to ensure that the countries remain 
sovereign and independent, and to help them develop toward 
becoming stable, market-oriented democracies. And the events of 
September 11, 2001, made clear our common security concerns and 
led to a significant broadening of the relationship.
    Now, at a moment when Central Asia is once again at a 
critical strategic crossroads, we want to expand our 
cooperation in a wide range of areas. We will seek to work with 
the governments and the peoples of the region, toward these 
ends. And we believe that developing more substantive, 
consistent relationship with these countries in areas of mutual 
interest will also open room for progress on democracy and 
human rights.
    We have five main policy priorities in Central Asia.
    The first is to seek to expand cooperation with the Central 
Asian states, to assist coalition efforts to defeat extremists 
in Afghanistan and Pakistan, bring stability and prosperity to 
the region. This includes expanding the capacity and 
reliability of the Northern Distribution Network.
    Second, we seek to increase development and diversification 
of the region's energy resources and supply routes. As recent 
energy crises and price fluctuations have shown, the importance 
of developing new hydrocarbon resources and distribution routes 
to meet growing demands is important. Some of the largest 
hydrocarbon deposits in the world are found in Central Asia, 
and billions of dollars have already been invested in 
developing the huge fields in Kazakhstan. And Turkmenistan 
harbors one of the world's largest reservoirs of natural gas. 
Global energy security is a key to peace and prosperity, and 
our partnership with Central Asia in this field has never been 
more important. And Special Envoy for Eurasian Energy, 
Ambassador Richard Morningstar, is actively engaged with the 
countries of Central Asia on this issue.
    We also want to encourage the Central Asian countries to 
draw on the expertise of international energy companies to 
maximize the safe production of oil and gas, and contribute to 
the export routes. And diversification of export routes will 
strengthen the economic security, sovereignty, and prosperity 
of these states.
    We also seek to promote the hydro, renewable, and solar 
energy resources in Central Asia. And we believe that the 
prudent development of the region's hydro potential can 
increase domestic energy supply and, in the future, provide 
earnings from exports south to Afghanistan and Pakistan. But, 
the development of hydropower projects must be done in 
cooperation between the upstream and the downstream countries, 
to avoid potential conflicts.
    Third, we seek to encourage political liberalization and 
respect for human rights. President Obama has made clear, we 
don't seek to impose our political system on other nations, but 
that does not mean that we do not actively promote good 
governance and respect for fundamental human rights. We believe 
that an active civil society and unfettered media serve as 
vital spurs for better governance and political liberalization. 
We'll continue to be a strong advocate for building democratic 
political institutions in Central Asia, based on respect for 
universal principles of human rights, justice, and dignity, to 
which all these states have themselves committed, as members of 
the Organization for Security and Cooperation in Europe, as 
well as members of the United Nations.
    We recognize that the pace of change is often slow, and our 
program should focus on long-term, meaningful results. Policy 
statements and high-level dialogue should not avoid difficult 
topics like human rights and democratic institution-building. 
We foresee human rights issues as an integral part of our 
renewed bilateral dialogue with each of the Central Asian 
states. And the dialogue must be with both the governments and 
the societies. In this context, we see Kazakhstan's upcoming 
chairmanship of the OSCE in 2010 as an excellent opportunity to 
highlight the need for more consistent observance of the OSCE's 
human-dimension principles in Kazakhstan and throughout the 
region.
    Fourth, we seek to foster competitive market economies and 
encourage economic reform. We are coordinating bilaterally and 
multilaterally to encourage the economic policies necessary to 
improve the business investment climates in the region, and 
support economic growth and job creation, to make the Central 
Asian countries more competitive. We have a regionwide trade 
and investment framework agreement through which we want to 
encourage regional approaches to economic development and 
cooperation, in reviving the Great Silk Road of trade that can 
bring prosperity to all the states in the region. And we've 
also added a bilateral component for each of the countries as 
part of these trade and investment framework agreement 
meetings, to promote the discussion of economic and investment 
issues.
    We also hope that the Northern Distribution Network will 
encourage Central Asian countries to take steps to make it 
easier to do business along this route.
    We seek to promote transportation infrastructure 
development to improve the capacity and reduce the cost of 
trade among the Central Asian countries, and promote trade with 
global markets in all directions.
    We are not playing a great game in Central Asia in which 
promoting regional cooperation and diversification of trade and 
energy routes harms other existing trade routes and commercial 
relationships. Diversity and competition encourage security and 
efficiency in all markets and for all trading partners.
    Finally, we seek to prevent state failure. Since the 
collapse of the Soviet Union, poverty, civil strife, regional 
drug trafficking have created vulnerabilities in Central Asia 
that could, if not addressed, lead to state failures. Many 
states suffer from a lack of capacity in maintaining 
governance, education, health, and economic standards. And many 
are plagued by corruption that creates economic inefficiencies 
and political weaknesses. We are trying to focus our dialogue 
and programs to build needed capacities to ward off potential 
failures. For instance, food security is a growing problem in 
Tajikistan and Kyrgyzstan, and we're looking to continue and 
enhance our food security assistance.
    And agricultural reform is also sorely needed in the 
region, and could make the region more food secure, as well as 
economically diversified, and promote economic and political 
stability.
    Now, what steps are we taking to accomplish the goals? I 
would say that since the advent of the Obama administration, we 
have begun a systematic effort to elevate, enhance, and 
energize our dialogue with the countries of Central Asia. This 
past July, Under Secretary of State Burns led an interagency 
delegation to Central Asia to deliver a message from the 
President and Secretary of State that the United States has an 
important interest in stability, prosperity, security, and 
economic and political reform in Central Asia. The delegation 
found renewed interest among the countries of Central Asia in 
stronger ties and practical cooperation, based on mutual 
respect and mutual interests.
    And following this visit, we have begun to establish high-
level bilateral mechanisms with each country of Central Asia, 
featuring a structured annual dialogue to strengthen ties and 
build practical cooperation. And the first of these bilateral 
consultations will actually take place this week, when Uzbek 
Foreign Minister Norov leads a delegation to Washington.
    And we plan to launch annual consultations with the other 
four countries of Central Asia in the coming months. These 
dialogues will focus on practical steps we can take to make 
realistic progress on a mutually agreed agenda. We want to move 
from words to actions, across the whole breadth of our 
relationship.
    We also plan to expand our education and professional 
exchanges, promote people-to-people relations throughout the 
region, and increase our public diplomacy efforts.
    And another program we're working on is to bring the Peace 
Corps to Tajikistan.
    And on the assistant front, we have a range of programs 
operating in all of the countries, including those that focus 
on economic growth and health care, respect for human rights, 
border security, counternarcotics, and developing democratic 
institutions. But, in order to ensure that the programming 
supports our strategic goals and is coordinated across all the 
agencies, we are currently undertaking a whole-of-government 
review of our assistance strategy in Central Asia.
    And, Mr. Chairman, when I speak of ``whole-of-government,'' 
I mean whole-of-government, and that includes the United States 
Congress, and this committee in particular. The administration 
cannot achieve its objectives in Central Asia without the 
understanding, the guidance, support, and resources provided by 
the Congress. And I would strongly encourage members and staff 
to visit Central Asia to enhance the engagement the 
administration itself is undertaking. There you will see the 
many outstanding efforts our embassy teams are making to 
advance our security, our economic and our humanitarian 
interests. They need your support and encouragement. And when I 
say ``embassy teams,'' I mean these are not just State 
Department people, this runs through all the agencies that are 
present in our posts.
    We also look for partnership and cooperation with 
nongovernmental organizations and interested Americans who also 
join us in promoting a more stable, prosperous Central Asia.
    Mr. Chairman, in conclusion, this administration does not 
consider Central Asia a forgotten backwater, peripheral to 
United States interests. The region is at the fulcrum of key 
U.S. security, economic, and political interests. It demands 
attention and respect and our most diligent efforts. And the 
Obama administration is committed to this very approach.
    Thank you, sir. And I look forward to your questions.
    [The prepared statement of Ambassador Krol follows:]

 Prepared Statement of Hon. George A. Krol, Deputy Assistant Secretary 
  of State, Bureau of South and Central Asian Affairs, Department of 
                         State, Washington, DC

    Chairman Casey, members of the committee, I welcome the opportunity 
today to speak with you regarding U.S. policy in Central Asia.
    Today's hearing is particularly timely, especially after the 
President's December 1 speech outlining the way forward in Afghanistan 
and Pakistan. The Obama administration places a high priority on 
building principled partnerships in the Central Asia region in pursuit 
of our common interests. In that connection, we are moving to elevate 
and expand our cooperation with all the countries of Central Asia in a 
wide range of areas.
          why is central asia important to the united states?
    The United States has an important interest in promoting stability, 
prosperity, security, human rights, and economic and political reform 
in Central Asia.
    Central Asia's economic growth and democratic political development 
can produce a more durable stability and more reliable partners for the 
United States in addressing common yet critical global challenges, from 
nonproliferation to counternarcotics to energy security.
    The massive energy resources of Central Asia are important for the 
world economy, ensuring a diversity of sources and transit routes, 
while also delivering new economic possibilities in the region itself.
    Central Asia plays a vital role in our Afghanistan strategy. Just 
look at a map of the region. Three of the five Central Asian states 
border Afghanistan. A stable future for Afghanistan depends on the 
continued assistance of its Central Asian neighbors--just as a stable, 
prosperous future for the Central Asian states depends on bringing 
peace, stability, and prosperity back to their immediate neighbor 
Afghanistan.
    The countries of Central Asia are already contributing much to 
international efforts in Afghanistan. For example, Uzbekistan is 
supplying much-needed electricity to Kabul. The Transit Center at Manas 
International Airport in Kyrgyzstan is a crucial logistical hub for 
transporting personnel and for refueling operations. Turkmenistan 
provides humanitarian assistance to Afghanistan. Tajikistan provides 
overflight clearance. Kazakhstan provides humanitarian assistance, and 
it has just announced a new $50 million program to educate Afghan 
students in Kazakstani universities.
    And the Northern Distribution Network is becoming a vital route for 
getting supplies into Afghanistan for coalition forces.
       what are the current u.s. policy priorities in the region?
    Since the early 1990s, the primary U.S. policy goal in Central Asia 
has been to ensure that the countries remain sovereign and 
independent--and to help them develop toward becoming stable, market-
oriented democracies.
    The events of September 11, 2001, made clear our common security 
concerns and led to a significant broadening of the relationship.
    Now at a moment when Central Asia is once again at a critical 
strategic crossroads we want to expand on cooperation in a wide range 
of areas. We seek to work with the governments and the people of the 
region toward those ends.
    We also believe that developing a more substantive, consistent 
relationship with these countries in areas of mutual interest will open 
room for progress on democracy and human rights.
    We have five main policy priorities in Central Asia:

1. We seek to expand cooperation with Central Asian states to assist 
coalition efforts to defeat extremists in Afghanistan and Pakistan and 
bring stability and prosperity to the region.

    While acknowledging the significant contributions of the Central 
Asians to Afghan security, we want to facilitate and encourage broader 
bilateral and regional support to include cooperation on border 
security, counternarcotics, trade, and reconstruction.
    This also includes expanding the capacity and reliability of the 
Northern Distribution Network.

2. We seek to increase development and diversification of the region's 
energy resources and supply routes.

    Recent energy crises and price fluctuations have shown the 
importance of developing new hydrocarbon resources and distribution 
routes to meet growing demands. Some of the largest hydrocarbon 
deposits in the world are found in Central Asia. Billions of dollars 
have already been invested in developing the huge fields in Kazakhstan. 
Turkmenistan harbors one of the world's largest reservoirs of natural 
gas. Global energy security is a key to peace and prosperity, and our 
partnership with Central Asia in this field has never been more 
important. Special Envoy for Eurasian Energy, Ambassador Richard 
Morningstar, is actively engaging with the countries of Central Asia on 
this issue.
    We also want to encourage the Central Asian countries to draw on 
the expertise of international oil companies to maximize safe 
production of oil and gas and contribute to export pipelines. The 
expansion of the Caspian Pipeline Consortium (CPC) and development of 
the Kazakhstan Caspian Transport System project offer the possibility 
of getting increased oil out of the Caspian Basin into world markets. 
We're encouraging Turkmenistan to work with experienced U.S. energy 
companies to develop its gas resources and diversify its export routes 
across the Caspian. Diversification of export routes will strengthen 
the economic security, sovereignty, and prosperity of these states.
    We also seek to promote the vast hydro, renewable, and solar energy 
resources in Central Asia. For example, the U.S.-Kazakhstan Joint 
Action Plan calls for improved industrial energy efficiency auditing, 
wind resource mapping and sharing information on energy-efficient 
building materials and standards.
    We believe that the prudent development of the region's hydro 
potential can increase domestic energy supply and, in the future, 
provide earnings from exports south to Afghanistan and Pakistan. 
Development of hydropower projects must be done in cooperation between 
upstream and downstream countries to avoid potential conflicts. 
Kazakhstan, Uzbekistan, and Turkmenistan need the water for 
agriculture, but Kyrgyzstan and Tajikistan also need reliable access to 
gas and oil. And as Afghanistan stabilizes, it too will need to work 
with its Central Asian neighbors on a fair and equitable sharing of 
water resources.

3. We seek to encourage political liberalization and respect for human 
rights.

    President Obama has made clear that we don't seek to impose our 
political system on other nations, but that does not mean we do not 
actively promote good governance and respect for fundamental human 
rights. We believe that an active civil society and unfettered media 
serve as vital spurs for better governance and political 
liberalization. We will continue to be a strong advocate of building 
modern political institutions in Central Asia, based on respect for 
universal principles of human rights, justice, and dignity to which 
these states have themselves committed as members of the Organization 
for Security and Cooperation in Europe as well as members of the United 
Nations. Democracy itself is about more than elections--its development 
depends on protection of minority rights and freedom of expression, 
government responsiveness and transparency, and a fair and effective 
judiciary. Such liberalization can lead to greater domestic and 
regional stability--and that is in every nation's interest.
    We recognize that the pace of change is often slow and our programs 
should focus on long-term, meaningful results. Policy statements and 
high-level dialogues should not avoid difficult topics like human 
rights and democratic institution-building. We foresee human rights 
issues as an integral part of our renewed bilateral dialogues with each 
of the Central Asian states. And the dialogue must be with the 
governments and the societies. In this context we see Kazakhstan's 
upcoming chairmanship of the OSCE in 2010 as an excellent opportunity 
to highlight the need for more consistent observance of the OSCE's 
Human Dimension principles in Kazakhstan and throughout the region.
    We will stress shared goals--highlighting that rule of law and 
democratic institutions will foster transparent and predictable 
investment climates and foster economic growth. Providing less 
restrictive space for media, political opposition, and nongovernmental 
organizations will give civil society legal outlets and contribute to 
long-term durable stability.

4. We seek to foster competitive market economies and encourage 
economic reform.

    Competitiveness lags in the region. Kazakhstan--at number 67--is 
the only country in Central Asia that ranks in the top 100 countries in 
the World Economic Forum's Global Competitiveness Report. We are 
coordinating bilaterally and multilaterally to encourage the economic 
policies necessary to improve the business and investment climates in 
the region and support economic growth and job creation to make the 
Central Asian countries more competitive.
    We want to encourage the Central Asian countries to improve 
cooperation on water and energy. Disagreements between upstream 
(Tajikistan and Kyrgyzstan) and downstream (Uzbekistan, Kazakhstan, and 
Turkmenistan) countries have increased regional tensions and slowed 
development initiatives. We seek to work with partners, such as the 
European Union and the U.N. Center for Preventative Diplomacy in 
Ashgabat, to improve cooperation on these issues and adopt market-
driven exchanges that incorporate international standards for riparian 
resources.
    We have a regionwide Trade and Investment Framework Agreement 
(TIFA), through which we want to encourage regional approaches to 
economic development and cooperation--in reviving the great silk road 
of trade that can bring prosperity to all the states in the region. We 
have also added a bilateral component for each of the countries as part 
of our TIFA meetings to promote discussion of economic and investment 
issues. Efforts to improve the business climate, fight corruption, and 
improve transparency and predictability will not only create 
opportunities for U.S. companies, but will attract more reinvestment of 
Central Asian wealth which has flowed abroad.
    We also hope that the Northern Distribution Network (NDN) will 
encourage Central Asian countries to take steps to make it easier to do 
business along this route. Operation of the NDN will demonstrate 
regional trade opportunities and highlight existing impediments. We 
seek to promote transportation infrastructure development to improve 
the capacity and reduce the cost of trade among the Central Asian 
countries and to promote trade with global markets in all directions.
    We also seek to promote regional cooperation on border security and 
regulatory harmonization to reduce the time and added cost of crossing 
multiple borders in Central Asia.
    We are not playing a Great Game in Central Asia in which promoting 
regional cooperation and diversification of trade and energy routes 
harms other existing trade routes and commercial relationships. 
Diversity and competition encourage security and efficiency in all 
markets and for all trading partners.

5. We seek to prevent state failure.

    Since the collapse of the Soviet Union, poverty, civil strife, and 
regional drug trafficking have created vulnerabilities in Central Asia 
that could, if not addressed, lead to state failures. Many states 
suffer from a lack of a capacity in maintaining governance, education, 
health, and economic standards. Many are plagued by corruption that 
creates economic inefficiencies and political weakness. We are trying 
to focus our dialogue and programs to build needed capacities and ward 
off potential failure.
    For instance, food security is a growing problem in Tajikistan and 
Kyrgyzstan, and we are looking to continue and enhance our food 
security assistance.
    Throughout the region Soviet-era practices and cotton and wheat 
monoculture have increased poverty and corruption, and infringements on 
human rights in the forms of forced and child labor, and led to serious 
environmental damage. Agricultural reform is sorely needed throughout 
Central Asia and could make the region more food secure, economically 
diversified, and promote economic and political stability.
    what steps is the united states taking to accomplish its goals?
    Since the advent of the Obama administration, we have begun a 
systematic effort to elevate, enhance, and energize our dialogue with 
the countries of Central Asia. This past July Under Secretary of State 
Burns led an interagency delegation to Central Asia to deliver a 
message from President Obama and Secretary Clinton: The United States 
has an important interest in stability, prosperity, security, and 
economic and political reform in Central Asia, and we want to work with 
the governments and people of the region toward those ends. What this 
delegation found was a renewed interest among the countries of Central 
Asia in stronger ties and practical cooperation based on mutual respect 
and mutual interests.
    Following this visit we have begun to establish high-level 
bilateral mechanisms with each country, featuring a structured, annual 
dialogue, to strengthen ties and build practical cooperation. The first 
of these Annual Bilateral Consultations will take place later this 
week, with Uzbekistani Foreign Minister Norov leading a delegation to 
Washington. We plan to launch similar Annual Consultations with 
Kazakhstan, Kyrgyzstan, Tajikistan, and Turkmenistan in the coming 
months. These dialogues will focus on practical steps we can take to 
make realistic progress on a mutually agreed agenda. We want to move 
from words to actions across the breadth of our relationship.
    We also plan to expand our educational and professional exchanges 
and promote people-to-people relationships throughout the region as 
well as increase our public diplomacy efforts to tell America's story.
    Another program we're working on is to bring the Peace Corps to 
Tajikistan.
    On the assistance front we have a range of programs operating in 
each of the five countries of Central Asia, including programs focused 
on promoting economic growth, quality health care, advancing respect 
for human rights, strengthening border security, counternarcotics, and 
developing democratic institutions. In addition, for 2010 the United 
States will begin a comprehensive assistance program to address food 
insecurity in Tajikistan and Kyrgyzstan designed to increase 
agricultural productivity, bolster farmers' income, and reform unfair 
land regulations. Sustained funding over the next 3 years will help 
ensure that this now food security assistance program will have a 
sustainable impact.
    The United States Agency for International Development takes the 
lead in providing assistance. Other U.S. Government agencies also play 
a role. In order to ensure that programming supports our strategic 
goals, and is coordinated across agencies, we are currently undertaking 
a ``whole of government'' review of our assistance strategy in Central 
Asia.
    Mr. Chairman, when I speak of whole of government I mean whole of 
government--and that includes the U.S. Congress and this committee in 
particular. The administration cannot achieve its objectives in Central 
Asia without the understanding, support, and resources provided by 
Congress. I would strongly encourage Members and staff to visit Central 
Asia to enhance the engagement the administration itself is 
undertaking. You will see the many outstanding efforts our Embassy 
teams are making to advance our security, economic and humanitarian 
interests. They need your support and encouragement.
    We also look for partnership and cooperation with nongovernmental 
organizations and interested Americans who also join us in promoting a 
more stable, prosperous Central Asia.
    Mr. Chairman, in conclusion, this administration does not consider 
Central Asia a forgotten backwater, peripheral to U.S. interests. The 
region is at the fulcrum of key U.S. security, economic, and political 
interests. It demands attention and respect and our most diligent 
efforts. The Obama administration is committed to that very approach.

    Senator Casey. Thank you very much.
    Mr. Sedney.

 STATEMENT OF HON. DAVID S. SEDNEY, DEPUTY ASSISTANT SECRETARY 
OF DEFENSE, AFGHANISTAN, PAKISTAN, AND CENTRAL ASIA, DEPARTMENT 
                   OF DEFENSE, WASHINGTON, DC

    Mr. Sedney. Chairman Casey, Senator Risch, thank you very 
much for this opportunity to speak with you today about 
Department of Defense policy in Central Asia.
    The Department of Defense's primary goal in Central Asia is 
to support the war in Afghanistan. We provide this support in 
two ways. First, we are using a network of air and ground 
routes, known as the Northern Distribution Network, to ship 
increasing amounts of supplies through Central Asia to our 
troops in Afghanistan. Second, we continue to, as we have for 
years, assist the sovereign countries of Central Asia in 
maintaining their own security, in ways that they find 
acceptable.
    When announcing the troop surge--the troop increase in 
Afghanistan--President Obama noted that the status quo was not 
sustainable. And that's also true in Central Asia. Senator 
Casey, in your opening statement, you mentioned concerns about 
the capacity. I would say that, from our perspective, the 
capacity, in terms of road routes, rail routes, and air routes, 
is underutilized. There can be a lot more done, in terms of 
utilizing that capacity, through Central Asia, toward 
Pakistan--I'm--toward Afghanistan.
    I draw your attention--I apologize for the lateness; we 
just got them clear--to the two slides I added to my 
presentation; one of distribution networks, in heavy green, of 
the routes that we use through Central Asia and also through 
Pakistan that bring supplies into Afghanistan; and the second 
is a graph that shows the number of--the amount of supplies 
we've used--that we've moved into Afghanistan through the 
Northern Distribution Network, both the total amount and the 
rolling average of numbers of containers moved. However, we 
believe that amount has a potential to increase, and our 
partners with the Central Asian states, in doing so, are 
partnerships that we value very greatly, and we look forward to 
that.
    To achieve this success, we have to increase our engagement 
with Central Asia on all levels, not just a military, working 
in the short term to expand these logistical flows, and in the 
longer term, to expand and deepen our relations. Obviously, 
from the Department of Defense perspective on the security 
sector, my colleague Ambassador Krol has laid out in many other 
areas, where the United States Government has interests in 
Central Asia.
    We believe that this kind of intensive engagement--
increased engagement with Central Asia is important to help 
give our troops the support that is necessary to disrupt, 
dismantle, and defeat the al-Qaeda--the core goal that the 
President has laid out for us.
    The Northern Distribution Network, as I said, is the center 
for that. These commercial air and ground routes through which 
we ship supplies to Afghanistan represents a major 
accomplishment of interagency and intergovernmental 
cooperation. Since November 2008, in cooperation with the State 
Department, and especially the embassy teams, we've worked with 
Central Asian governments to build a robust transit network 
that supports our shared fight against the threat of extremism. 
We are, as I said, steadily increasing, and look to increase 
even more, the traffic on the NDN, overcoming impediments. This 
has not been an easy process, over the last year, to build up 
this network. But, we have been doing so, again, with the 
cooperation of Central Asian governments, decreasing 
impediments and increasing the amount and speed of the flow. 
From 20 containers a month in January, we now are in the 
position to be able to ship 350 containers per week, and as I 
said, expect this figure to increase further.
    I want to stress here that that increase is especially 
important, given the President's commitment to add 30,000 
United States troops to Afghanistan, that comes on top of 
33,000 additional troops that we have already sent to 
Afghanistan in calendar year 2009, and the concomitant increase 
in our allies and partners sending troops so far; we have 
commitments of over 7,000 from--troop--NATO and other troop-
contributing nations at ISAF, to increase their presence. So, 
all of this increase is going to be putting a greater demand on 
all of these routes, both through Pakistan and through Central 
Asia.
    Additionally, we support infrastructure projects that will 
help expand the NDN's capacity--a concern you raised, Senator 
Casey. The recently begun Hairatan/Mazar-e-Sharif Railroad, the 
first railroad that will extend into Afghanistan--$170 million 
joint Uzbek-Asian development project--will connect Afghanistan 
to the former Soviet rail system, and serve as the only direct 
rail line into the country. That project was approved by the 
Asian Development Bank at the end of September and will, we 
hope, be completed within the next 12 to 18 months.
    As part of the Northern Distribution Network, we are also 
stressing local purchasing in Central Asia. We want to thank 
the Congress for the provisions in this year's National Defense 
Authorization Act that allowed that local purchasing in Central 
Asia to proceed. We think that's important, both for the 
cooperation of the local governments, benefits to the local 
economy, and it's also a way to more economically address some 
of the needs we have in Afghanistan. This local purchasing 
process helps illustrate one of the benefits--and you, Senator 
Casey, in your opening statement, mentioned that--the ancillary 
economic benefits for Central Asia, bringing together the 
economies of Central Asia, not just with each other, but also 
with their neighbors in a broader world, as we are putting a 
lot more additional throughput into this system, where you're 
going to get a lot more benefit out of that.
    But, most importantly, the Northern Distribution Network is 
an effective means to supply our warfighters, and provides 
capacity and redundancy to complement our already heavily 
burdened lines in Pakistan.
    The expansion--the actual expansion in number of 
containers, is something we're still looking--our logistics 
experts are still looking at how much expansion the Northern 
Distribution Network will be able to support.
    In addition to the Northern Distribution Network, we also 
conduct overflights. And Senator, you mentioned in your opening 
statement, the Manas Airbase. I want to express my appreciation 
to the government and people of Kyrgyzstan for their support 
for the transit center in Kyrgyzstan. Our negotiations this 
year have come up with an agreement that is acceptable to both 
sides, and I want to echo my colleague Ambassador Krol in 
inviting you to visit Central Asia, and urge that if you visit 
Central Asia, you stop in Kyrgyzstan and visit the transit 
center. Under the leadership of an exceptional Air Force 
officer, Col. Blaine Holt, the transit center serves thousands 
of soldiers going into Afghanistan every day. Some of the 
initial troops that are going there will be passing through the 
transit center this week. The relationships with the local 
people and with the Government of Kyrgyzstan have improved, I 
think, quite dramatically over the past several months, through 
a joint effort through our Embassy, our Ambassador and our 
military forces on the ground in Kyrgyzstan. Again, I invite 
you to go and see that transit center. I think it's really an 
exceptional success story.
    As you mentioned, Senator, as my colleague Ambassador Krol 
mentioned, the threat of Islamic extremism is once again rising 
in Central Asia. In 2009, the Islamic Jihad Union conducted a 
suicide bombing in Uzbekistan. Throughout the summer, local 
governments fought with suspected extremist cells in the 
Fergana Valley. Local governments--the governments in the 
region share our concern about extremism. In our discussions 
with our counterparts from Central Asia, this issue has figured 
much more strongly this year than--at the end of this year, 
than it did at the beginning. This is very clearly a concern 
that we share with them. We need to cooperate with them to 
address this shared threat.
    Our cooperation with the governments of Central Asia comes 
in two areas: security assistance and humanitarian assistance. 
Our security assistance focuses on the professionalization of 
local militaries' border guards, counternarcotics forces, and 
counterterrorism forces. So far, we've seen some really great 
progress. The George Marshall Center has trained almost 1,000 
Central Asian security professionals. Our National Guard State 
Partnership Programs, which are really a key to our efforts in 
Central Asia, use citizen soldiers to teach civil-military 
relations. With training that we've been able to provide, with 
the assistance of funds provided by Congress, we are helping to 
improve the counterterrorism, peacekeeping, and demining 
capabilities of governments that are eligible for this funding, 
and help them move beyond the Soviet-era history. Through this 
engagement, we work together to create stable governments, 
peaceful societies, and a secure zone to the north of our most 
important war effort.
    We also, in some areas, have been able to carry out 
humanitarian efforts, humanitarian assistance to enhance the 
capacity of local governments.
    We also have a very active high-level engagement with the 
Central Asian governments. Our CENTCOM commanders have visited 
Central Asia seven times in the last 3\1/2\ years. TRANSCOM--
our TRANSCOM commander has visited the region three times in 
the last 2 years. And we are also looking forward to 
participation in the annual bilateral consultations, described 
earlier by Ambassador Krol. We think these broad efforts are 
important to building a regional area.
    As President Obama said, this is not just America's war. 
Russia, China, Turkey, and even Iran share our desire to 
disrupt, dismantle, and defeat al-Qaeda. That's why they 
support our efforts in the region, such as Russia's recent 
decision to allow us unrestricted both lethal and unlethal--
lethal and nonlethal military transit. It's why our assistance 
packages often overlap in Central Asia, often to mutual 
benefit. A container traveling on the Northern Distribution 
Network may travel on Russian-built rails, on Chinese-built 
roads, through an Iranian-built tunnel, and over an American-
built bridge, before reaching Afghanistan. Regional powers 
increasingly recognize that cooperation is necessary to defeat 
violent extremism.
    This is particularly true of Pakistan. Just as success in 
Pakistan drives success in Afghanistan, it is also key to a 
stable Central Asia. The IMU fighters captured in Central Asia 
this summer did not only come from Afghanistan, they also came 
from areas in Pakistan where they operate.
    However, while Pakistan can export instability, it can also 
export wealth. Central Asians know that a stable, prosperous 
Pakistan means increased trade through Central Asia, and it is 
for this reason--among these reasons that they support our 
efforts to stabilize Pakistan.
    As Ambassador Krol has outlined, our strategy in Central 
Asia, a strategy that for 20 years has been remarkable in many 
ways in its consistency and success, our engagement in the 
Department of Defense, we believe, has enhanced security, 
diplomatic ties, and trade, and helped accelerate the 
achievement of our long-term goals. Even as some of our goals 
are short term, we believe their benefits will be longer 
lasting.
    In Afghanistan, President Obama has asked the Department of 
Defense to use the instruments of war to preserve the peace. 
Central Asians understand that they will be the first 
benefactors of this strategy, and we see them as eager to help 
win the--help the United States, our allies, and our partners 
win the war in Afghanistan. We must take advantage of their 
interest in closer cooperation, work together to defeat violent 
extremism, and help establish a stable peace. In logistics, 
security assistance, political support, we must come together 
to succeed.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Sedney follows:]

   Prepared Statement of David Sedney, Deputy Assistant Secretary of 
    Defense, Afghanistan, Pakistan, and Central Asia, Department of 
                        Defense, Washington, DC

    Chairman Casey, distinguished members of the committee, thank you 
for the opportunity to speak with you today about Department of Defense 
policy in Central Asia.
    The Department of Defense's primary goal in Central Asia is to 
support the war in Afghanistan. We provide this support in two ways. 
First, we use a network of air and ground routes, known as the Northern 
Distribution Network, to ship supplies through Central Asia to our 
troops in Afghanistan. Second, we assist the sovereign countries of 
Central Asia in maintaining their own security in a way they find 
acceptable.
    When announcing the troop increase in Afghanistan, President Obama 
noted that, ``the status quo is not sustainable.'' This is also true in 
Central Asia. To achieve success we must increase our engagement with 
Central Asia at all levels--working in the short term to expand 
logistical flows and in the long term to expand and deepen our 
relations, from a DOD perspective particularly in the security sector. 
Such intensive engagement will help give our troops the support they 
need to disrupt, dismantle, and defeat al-Qaeda.
                          shipping and transit
The Northern Distribution Network (NDN)
    The NDN is a network of commercial air and ground routes through 
which we ship supplies to Afghanistan. It represents a major 
accomplishment of interagency and intergovernmental cooperation: Since 
November 2008, in cooperation with the State Department and especially 
their embassy teams, we worked with Central Asian Governments to build 
a robust transit network that supports our shared fight against the 
threat of extremism.
    With the help of our Central Asian partners we are steadily 
increasing traffic on the NDN and overcoming impediments that hinder 
the network's efficiency as they arise. In both the air and on ground 
we are increasing shipments while decreasing processing time. From 20 
containers per month in January, we now ship 350 containers per week, 
and expect this figure to increase further. Additionally, we support 
infrastructure projects in the region which expand the NDN's capacity. 
For example, the recently begun Hairaton-Mazar-Sharif railroad, a $170 
million joint Uzbek-Asian Development Bank project, will connect 
Afghanistan to the vast former Soviet rail system, and serve as one of 
the few direct rail lines into the country.
    As part of the NDN we are also implementing the Central Asia local 
purchasing program. This program works with Central Asian businesses to 
purchase local materials for use in Afghanistan, to the benefit of both 
sides--we save money on shipping, while local economies benefit from 
increased trade. In the process we help drive greater economic 
cooperation, as local governments cooperate to keep transnational 
transit routes open and local economies rise to meet international 
purchasing standards. I would like to note that we could not have 
implemented this program without Congress's addition of the necessary 
provisions to the National Defense Authorization Act. We thank you for 
this critical support.
    The local purchasing program also demonstrates a potential benefit 
that the NDN holds for Central Asia--the ability to reconnect the 
region to the global economy. By expanding trade linkages the NDN helps 
reconnect Central Asia to India, Pakistan, and other formerly closed 
markets, while opening a direct land route from the heart of Asia to 
the heart of Europe. For instance, the most direct route from Lahore to 
Berlin cuts directly across Afghanistan and Central Asia. Ancient 
traders knew this. So do today's airlines, who fly this route every 
day. With the NDN we can help ground transit do the same.
    Most importantly, the NDN is an effective means to resupply our 
warfighters and provides capacity and redundancy to complement our 
heavily burdened lines through Pakistan. This is particularly important 
in light of President Obama's decision to send 30,000 more soldiers to 
Afghanistan, and the commitment by our allies for another 7,000. Since 
its inception 11 months ago, we have shipped almost 5,000 containers 
along the NDN. We will expand this number in 2010 to meet the new 
demand, and will continue to support our effort to defeat al-Qaeda.
Military Transit Routes
    In addition to the NDN, which is purely commercial, DOD conducts 
military overflights of most countries in Central Asia. We have close 
relationships with each transit country, and are working to increase 
overflights and open new flight paths.
    Importantly, we also have access to the Manas Transit Center in 
Kyrgyzstan, through which the majority of our combat troops transit on 
their way to Afghanistan. We greatly appreciate the willingness of the 
Kyrgyz Government to continue its support in our common struggle, and 
look forward to maintaining this important link in our logistical 
network.
                     stabilizing local governments
    The threat of Islamic extremism is once again rising in Central 
Asia. In 2009 the Islamic Jihad Union (IJU) conducted a suicide bombing 
in Uzbekistan, and throughout the summer local governments fought with 
suspected extremist cells in the Ferghana Valley. Local governments 
share our concern about extremism, and we cooperate with them to 
address this shared threat in two areas: security assistance and 
humanitarian relief.
Security Assistance
    Our security assistance focuses on professionalization of local 
militaries, border guards, counternarcotics forces, and 
counterterrorism forces. So far we have seen great progress. For 
example, to date the George Marshall Center has trained close to 1,000 
Central Asian security professionals, creating a cadre of Western-
oriented professionals predisposed toward reform. Similarly, our 
National Guard State Partnership Program uses citizen--soldiers to 
teach Western-style civil-military relations.
    With the help of DOD training our partner governments are building 
modern counterterrorist, peacekeeping and demining capabilities, and 
continue to engage us for help moving beyond Soviet-era military norms. 
Through this engagement we work together to create stable governments, 
peaceful societies, and a secure zone to the north of our most 
important war effort.
Humanitarian Assistance
    Our humanitarian assistance seeks to enhance the capacity of local 
governments. We work closely with our partners in the State Department, 
USAID, and the NGO community to implement programs that improve 
government-civilian interactions, removing incentives for extremist 
support.
                         diplomatic engagement
    DOD carries out regular high-level consultations with our Central 
Asian partners. For example, CENTCOM commanders visited Central Asia 
seven times in the past 3\1/2\ years, while the TRANSCOM commander 
visited the region three times in the past 2 years. In addition, we 
participate in the Annual Bilateral Consultations (ABC's) described 
earlier by Deputy Assistant Secretary Krol. These efforts help build 
the stable, cooperative relationships necessary to achieve our goals in 
Central Asia.
                            regional actors
    Regional powers realize that, as President Obama recently said, 
``this is not just America's war.'' Russia, China, Turkey, and even 
Iran share our desire to disrupt, dismantle, and defeat al-Qaeda. This 
is why they support our efforts in the region, such as Russia's recent 
decision to allow DOD unrestricted transit. It is also why our 
assistance packages often overlap in Central Asia, often to mutual 
benefit. For example, a container traveling on the NDN may travel on 
Russian-built rails, Chinese-built roads, an Iranian-built tunnel, and 
an American-built bridge before reaching Afghanistan. Regional powers 
recognize that cooperation is the best way to defeat the threat of 
violent extremism.
    This is particularly true in Pakistan. Just as success in Pakistan 
drives success in Afghanistan, it is also key to a stable Central Asia. 
The IMU fighters captured in Central Asia this summer did not only come 
from Afghanistan--they also came from Pakistan. However, while Pakistan 
can export instability, it can also export wealth. Central Asians know 
that a stable, prosperous Pakistan means increased trade through 
Central Asia, and it is for this reason that they support our efforts 
to stabilize Pakistan.
                           long-term strategy
    Deputy Assistant Secretary Krol has already outlined America's 
long-term strategy in Central Asia--a strategy that, for 20 years, has 
been remarkable in both its consistency and its success. DOD's 
engagement in Central Asia has enhanced security, diplomatic ties, and 
trade, and accelerated the achievement of our long-term strategic 
goals. Even though some of our actions are driven by short-term 
concerns, their benefits will be long lasting.
                             the way ahead
    In Afghanistan, President Obama has asked the Department of Defense 
to ``use the instruments of war to preserve the peace.'' Central Asians 
understand that they will be the first benefactors of this strategy and 
are eager to help America win the war in Afghanistan. We must take 
advantage of their interest in closer cooperation, and work together to 
defeat the violent extremism and establish a stable peace. In 
logistics, in security assistance, in political support--we must come 
together in order to succeed.

    Senator Casey. Thanks so much.
    I will begin the questioning. We'll try to do 5 to 7 
minutes. We'll do a couple rounds, I guess.
    But, I wanted, Mr. Sedney, to go back to the Northern 
Distribution Network. And I know your statement provided an 
overview. I just wanted to highlight a couple of questions.
    On the question of infrastructure, if you could design it 
or plan any and all improvements to the line, what would you 
change? Where are the defects or the shortcomings of the NDN?
    Mr. Sedney. Well, the biggest shortcoming of the NDN, as 
with our transit through Pakistan, is actually the entry into 
Afghanistan, because of the legacy of history, where 
Afghanistan's king, in 1905, declared that there will be no 
railroads into Afghanistan; the fact that there are no current 
rail links into Afghanistan. And once you get in Afghanistan, 
of course, there's no rail among the different cities. 
Similarly with roads, while there's been a lot of construction 
of roads in Afghanistan, the roads and the--both the entry 
points into Afghanistan and roads after that are huge limiting 
factors in our ability to deliver supplies throughout 
Afghanistan. So, really it's that interface along the border 
that would be most important.
    Similarly, again, the real bottleneck in getting supplies 
into Afghanistan is really Afghanistan, in terms of the 
infrastructure there. So, if we could expand rail access, 
improve road access, expand bridges and other infrastructure, 
that would be of great assistance in moving our supplies more 
effectively to Afghanistan.
    Senator Casey. Just so we don't leave our audience in the 
dark--I know this map is hard to see, even from on the chart, 
but even from a distance, you can tell there's a good bit of 
information. Would you mind just kind of walking through what's 
depicted here, what it means for the NDN. For those who can't 
see from the back, it says, ``NDN the First Year,'' and then we 
have a graph along both ends here, which I'd better not try to 
describe, because I need you to do it. But, I think it's 
important to walk through--this is a graphic depiction of the 
NDN the first year. Will you tell us what this graphic 
outlines.
    Mr. Sedney. Certainly, Senator. What this is is a graphic 
illustration of the--of, essentially, a--the expansion of the 
NDN, going from nothing to something. So, the blue bars are the 
total TEU's which are 20-foot containers--the 20-foot container 
you see in a truck where we've moved 4,769 of those, as of the 
end of November. So, the blue line just shows the total we've 
moved, so each month is cumulative.
    Senator Casey. So, the acronym TEU equals a container of 
some kind?
    Mr. Sedney. Right, it equals a 20-foot container.
    Senator Casey. OK.
    Mr. Sedney. It's a logistics term. I--but, if you think of 
a 20-foot container, that's what it is.
    In the--moving down on the graph, there's a dark line 
followed by a dotted line that shows the numbers of containers 
we've moved per week. And you'll see that that gets up to 300--
there's a dotted line--to 350 a week in November, and that's 
actually what we're at in November and for the first week of 
December. I just got the figures, from last night.
    Senator Casey. So, just----
    Mr. Sedney. So, that shows how many we're moving per week.
    Senator Casey. Just so we're clear. June 2009, we're 
talking about----
    Mr. Sedney. Right.
    Senator Casey [continuing]. You were moving 108 of these 
containers per week.
    Mr. Sedney. Right.
    Senator Casey. That--the number per week went up to 134 
containers per week in July; 200 between, I guess, August and 
September; then there was a little dip----
    Mr. Sedney. Dipped.
    Senator Casey [continuing]. And then it's going up--as of 
November, 350 of these containers moving per week, through the 
NDN, is that accurate to say?
    Mr. Sedney. That's correct, Senator. And the NDN--I want us 
to just go back to the map for a second--is several routes. So, 
we have routes coming across the Caucasus, across the Caspian 
Sea, and then through Kazakhstan, Uzbekistan, and also through, 
actually, Estonia--we don't see it here on the map--and then 
through Russia, and then again through Kazakhstan, and then 
Kyrgyzstan, and then through Tajikistan into Afghanistan. And 
the railroad actually allows us to deliver it through 
Kazakhstan, then Uzbekistan, to Afghanistan. So, there are 
several--there's different routes that we're using. The main 
route is the one that goes into Afghanistan from Uzbekistan. 
The numbers through Tajikistan are significantly smaller.
    Senator Casey. Can you help us with----
    Mr. Sedney. But, we're using all these different routes to 
have multiplicity of routes.
    Senator Casey. Can you help us with the miles, here; give 
us a sense of the distance from end to end? And also, within 
that, where is the threat--what part of that route would be the 
most--at least, based upon recent history, the most dangerous?
    Mr. Sedney. In terms of the most dangerous, I'd say the--
it's most dangerous once you get into Afghanistan. We haven't 
had any security incidents on the route itself, outside, that 
I'm aware of. So, really, the danger begins once you get into 
Afghanistan. Does that mean that the Taliban and their allies 
haven't thought about--wouldn't consider that? I'd have to 
actually discuss that with you in a classified setting.
    Senator Casey. OK.
    Mr. Sedney. But, so far, there have been no security 
incidents on that, and the problems have been inside 
Afghanistan, on this--in this case.
    Senator Casey. I'm a little bit--or, close to being over my 
time. I want to just ask one more question, but let me come 
back to that.
    I want to get one question in to Ambassador Krol, before I 
wrap up, on nonproliferation. We have, obviously, an unstable 
geopolitical condition in the region. Ambassador, any 
indications that Kazakhstan or one of its neighbors is 
particularly vulnerable right now to extremists trying to 
obtain fissile radioactive materiel? That's a concern we all 
have, not only in these nations in this region, but, of course, 
even in Pakistan itself. That's one of the main threats that 
we're worried about. And I guess, (a) do you think there's a 
real threat now?--I know there's limitations on what you can 
say and we understand that--but, what strategy do we have in 
place to minimize that threat, as it relates just to extremists 
getting fissile or other nuclear materiel in this region, in 
these nations?
    Ambassador Krol. Right, Mr. Chairman. I think what I can 
say, in this format, is that it's very much a high priority for 
our government to monitor this and to work closely with the 
governments in the region. And we have a very robust program 
with Kazakhstan, which has been a many years duration, under 
our Cooperative Threat Reduction Program, in ensuring the 
safety and as well as the lack--denying access to materiels 
that might be of some use and of concern. And this is a major 
issue that we work with cooperatively with Kazakhstan.
    And I could note that President Nazarbayev is actually 
going to be coming to Washington for the Global Nuclear summit, 
in April of this year, because of--naturally, it is a country 
that, as you've noted in your own statement, has offered to 
host a fuel bank on its territory and the like, as well, and we 
work with great cooperation with Kazakhstan.
    In the other countries in the area that matter is also 
trying to develop border controls and infrastructure so that 
the law enforcement agencies in these countries have the 
capability to interdict and to identify, if there were to be 
any movements of materiels. And this is something that, 
actually, we've been working on and building and equipping 
border posts throughout Central Asia. And I've visited several 
of these and have seen the equipment that is put in, which is--
has x rays and things of this nature, in order to monitor the 
situation. So, it is an ongoing part of our dialogue with each 
of these countries, but also something that we're actually 
taking action on, and continues.
    Senator Casey. Mr. Ambassador, thank you very much.
    Senator Risch.
    Senator Risch. Thank you, Senator Casey. And thank you for 
holding this hearing on this very important region of the 
world. I think just a cursory glance at the map tells us how 
important the real estate is in this part of the globe.
    Ambassador Krol, you made reference, and sort of a passing 
reference, to the words ``failed state,'' which I think bring 
considerable caution to all of us, because of what we've seen 
happen in places like Somalia, Yemen, and other places. On 
these--on the five countries in issue here, how do you rate 
that danger--on a scale of clear and present danger being at 
the top, to relatively stable at the bottom, how do you--how 
would you rate the countries?
    Ambassador Krol. Senator, as I mentioned in my statement, 
that we see deficiencies in capacities in practically all of 
the countries in the region. There are some that have greater 
problems of capacity because of their history, the difficulties 
that they face. Tajikistan is the most immediate one, as you 
know, that they suffered from a terrible civil war for many of 
the years in the nineties--the effort to try to establish good 
governance in the region, also in controlling their borders, 
particularly that have the border with Afghanistan, and 
developing an economy and a political system that is responsive 
to the people, in meeting the needs, the food needs, the 
security needs of the people. And we are working very closely 
in our relationship with Tajikistan to address these capacity 
issues, as well.
    These are--in Kyrgyzstan, is also a very--it's a poor 
state, as well. Many of these issues are related to poverty, as 
well as efforts to, again, try to build up good governance, 
build up infrastructure and the economies of these countries so 
that they can meet the needs of the people, as well as working 
with their law enforcement agencies to ensure that they are 
protecting people, but protecting people with a view to also 
protecting and respecting their human rights.
    I think that these are also, similarly, issues in 
Uzbekistan and in Turkmenistan and in Kazakhstan.
    But, the ones that concern us the most are--because they 
are the poorest countries in the region, are Tajikistan and 
Kyrgyzstan.
    Senator Risch. Mr. Sedney, I'm looking, here, at the map, 
and I assume the green that's on here are the main routes that 
we're talking about. What are the yellow and the red?
    Mr. Sedney. The yellow lines are road lines and the red 
lines are rail lines--other rail lines that we're not using. 
That's my understanding, sir. Yes.
    Senator Risch. You mentioned that you've jumped--and you 
gave us the chart here that goes from 20 containers a week up 
to 350 containers a week. And these are inflow into 
Afghanistan. Is that what you're telling us?
    Mr. Sedney. That's correct, Senator.
    Senator Risch. And, where do these start from?
    Mr. Sedney. Some of them start from the United States, and 
some of them start from Europe, some of our logistics centers 
in Europe. Some of them directly from the United States, others 
are things that are sent to Europe, and then we have some 
distributions centers there. But, it's both.
    Senator Risch. And are they ship-delivered, or air-
delivered?
    Mr. Sedney. The Northern Distribution Network is ship and 
rail, until it gets to Afghanistan, when they're transferred to 
trucks for onward delivery in Afghanistan. So, they're ship--
for example, the ones that through the route here are ship-
delivered to Georgia, go by rail across the Caucasus, then 
shipped across the Caspian to Kazakhstan, and then rail through 
Kazakhstan and Uzbekistan. The green line up here actually 
terminates in Estonia, and so it goes by ship to Estonia, then 
gets on the rail network in Estonia, goes through Estonia, and 
then into Russia, then on into Russia and the rest of the way. 
But, the containers are--the Northern Distribution Network 
right now--and that's because of the cost efficiencies of 
moving things by rail, as opposed to truck.
    Senator Risch. The--you mentioned Russia be allowing us to 
cross--and obviously you have it on the map here, where we are 
crossing Russia with these containers. Has that situation 
changed any, or was there a--when was there a change in 
Russia's agreement to do this?
    Mr. Sedney. We began the Northern Distribution Network 
effort a year ago, and at that point in time, Russia and NATO 
had a transit agreement, and we used that transit agreement as 
part of--as a member of NATO, to begin that. Last--this past 
summer, when President Obama was in Moscow, he and President 
Medvedev agreed on unrestricted lethal and nonlethal transit, 
including through air, with the Russians. And so, that was a 
major change. So far, we have conducted two flights, I believe. 
Secretary Clinton, in her visit to Moscow in--September was it, 
George?--in September, announced the first flight, and we've 
had a second flight. We continue to work with Russia and 
Kazakhstan to try and make that a route that we're able to use 
on a regular basis.
    Senator Risch. What--how would you characterize the safety 
of the transportation across these routes? And I'm particularly 
interested in the ones that come from the west--from the north 
and west, and come into Afghanistan. Are--have you had 
incidents of attacks there, or what--how would you characterize 
that?
    Mr. Sedney. So far, the record has been exceptional. We've 
had no incidents. We've had no incidents relating to attacks, 
or anything of the kind. There has been--the speed has 
continued to increase, as I mentioned. The comparison we would 
draw with the--is with the routes coming up from the south, 
through Pakistan, where we do have--have had, over the last 
several years, a number of attacks. Although the actual success 
rate for containers getting through Pakistan is very high--in 
the high 90 percent--in the high 90 percents, coming--in the 
Northern Distribution Network, it's basically 100 percent.
    Senator Risch. Finally, if I could get both of you to 
comment on this, how would you characterize the various 
countries--their governments' commitment to suppressing radical 
fundamentalists operating within their territories?
    Mr. Sedney, could we start with you and----
    Mr. Sedney. Sure. I would say that all the governments of 
all the countries involved are concerned about radical 
extremism, both as in terms of their own country's internal 
situation, and also their concern about Afghanistan. And my 
discussions, and our discussions at the Department of Defense 
with the governments of the region, they're very concerned with 
either a return to the Taliban or some other extremist elements 
controlling Afghanistan, because they see that as, long term, 
destabilizing to the region and their country. At the same 
time, they have concerns about their own internal security. And 
I would say that, as I mentioned in my testimony, that concern 
is focused on the Fergana Valley, which is actually shared, 
pretty much, among three of the states. Uzbekistan, Kyrgyzstan, 
and Tajikistan all have access to the Fergana Valley. And that 
center of extremist activity in the Fergana Valley affects 
those three countries, I would say, in a very--in a reasonably 
significant way.
    Senator Risch. And do all five of the countries have about 
the same level of enthusiasm for controlling the radical 
movements?
    Mr. Sedney. I would say, in terms of their interest in 
doing it, they're all concerned. I wouldn't--I have a hard time 
drawing a distinction among them about how concerned they are. 
The level of threat varies by countries, and so the countries 
with the greater threat and the more activity spend more time 
on it. But, in terms of their concern, your closest question, I 
think they're all pretty much concerned equally about that.
    Senator Risch. Ambassador Krol.
    Ambassador Krol. Senator, I would agree with my colleague, 
David Sedney, that in my travels in the region and discussions 
with the governments, it's quite clear that they are quite 
concerned about the impact or the possible growth of religious 
extremism in their own countries. And it is a matter that we 
discuss with them, and it's also something that they try to--
take measures to try to monitor, themselves. I think a lot of 
it is also due to the concerns that they have about their own 
governance and poverty issues, too, in order to meet the needs 
of the people, but also to respect the human rights of people 
and their--and respect for religions, and not to view that all 
religions and religious groupings are extremist, but to make a 
considered division as to those that preach terror or preach 
intolerance and those that are in, as one would say, the 
mainstream of religious beliefs and practices.
    And so, it's a sensitive issue for all of these countries, 
because they are secular; they come out of the Soviet 
experience of looking in a particular way about religion, but 
they are looking and grappling at ways to be, as it were, 
respectful of the growth of religiosity and of the religious 
rights of their citizens, as well, while trying to balance it 
with their concerns that there may be certain groups that may 
try to use this for extremist purposes in their own countries. 
But, it's certainly an element of our bilateral discussions 
with them, and it is a very important one.
    Senator Risch. Were they secular governments when they 
originally went into the Soviet orbits?
    Ambassador Krol. Well, they--as the--the history of the 
region would show that they were originally, as it were, part 
of the Russian empire. And then, when the Soviet Union was 
created, they were, basically, in many respects, forced, under 
the Soviet system, to be communistic and atheistic, too. So, 
there were many efforts that were made, in that past and over 
the 70 years, to suppress religious feelings as well as 
religious groups throughout this particular region. And since 
they've become independent and the Soviet Union had--has 
disappeared, there is somewhat of a resurgence, there's been, 
of religious belief in these countries, and--which is an 
understandable one. But, it also has created certain concerns 
as how that religious fervor will be directed, and what kind of 
organizations and individuals are involved in it.
    Senator Risch. Thank you, Ambassador.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Risch.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I want to thank you for 
holding this hearing. This is a very important part of the 
world that many times goes overlooked.
    And I think in answer to Senator Risch's question, the good 
news is, these governments repress terrorists; the bad news is, 
they repress everybody. And so, you know, this is an area 
where, if you look at it from the context of political rights 
and civil liberties, you are in a very bad neighborhood.
    But, I want to focus in on freedom of the press. And when 
you look at freedom of the press, using the Freedom House 
ratings, Turkmenistan is 193rd in the world, Uzbekistan is 
189th in the world, Tajikistan and Kazakhstan are tied at 168. 
Ambassador Krol, what are we doing in order to try to promote a 
free press in these four countries?
    Ambassador Krol. Senator, you're quite right. The picture 
of media freedoms is a particularly disturbing and sad one in 
Central Asia. But, it's not one that's a landscape that is 
devoid of hope. If you take, for instance, Turkmenistan, which 
you had noted, too, that since the coming to power of President 
Berdymukhamedov, there has been somewhat of an opening to--at 
least to the United States--to engage in some programs of 
training people in the media. And there have been, actually, 
visits of people from--that I've met here in Washington and 
talked with about in Turkmenistan--of a generation of people 
who are involved in journalism and in media, who, through our 
programs, are coming to the United States to see how we and how 
our media operates. And although when they go back they haven't 
yet been able to, sort of, use some of this in order to, you 
know, change dramatically, it's a beginning. And this is 
something that's important and that, as we are working with 
these people and these governments to use these openings of 
engagement, to show them that having a free media is not 
something to be feared, but it's something that can strengthen 
a state and strengthen a society, and how it's vitally 
important for democratic development.
    And this is throughout the region, where we are developing 
constructive programs of trying to work with the local 
governments and societies to develop a media and an 
understanding of the role of the media in these societies that 
is not one of hostility. And it's a long process, and there's 
been, sort of, the ups and downs of it, because, most of these 
countries, there is a desire to control the media from the 
state. But, to have an independent media that can be actually 
critical, and play a role in accountability and things of this 
nature, is very difficult, in the political cultures of these 
countries, to accept. But, we keep trying to work on this with 
people in civil society and in the governments, to try to 
persuade them of the benefits to--and for the outcome of 
stability in their societies, by having a free media.
    Senator Kaufman. Do we have any leverage in this? I--you 
know, I think trying to convince these leaders that it's in 
their interest to have a free media is a--at the best, an 
uphill battle. Is there anything--do we have any leverage--the 
United States of America--to try to promote these values, which 
we feel are important for stability?
    Ambassador Krol. Right, well I think that they--for these 
countries to know when they want a good relationship with the 
United States, which they all would like, that this is an 
important issue for the United States. And it's not just for 
our own interests, but because of the broader interests we see 
for themselves. And, as you said, it's difficult for them to 
understand that. But, I think there is some leverage that they 
know that when they hear this from us consistently--and it's 
not simply preaching, but it's that we're offering constructive 
programs and things of that nature--that it has, in some 
respects, led to some openings and some cracks in their view on 
how to deal with the media. But, it's something that demands, 
you know, commitment and constant--and a consistent message to 
them.
    Senator Kaufman. I totally agree. I absolutely totally 
agree.
    Now, Kyrgyzstan is a little bit better. Is there anything 
we can learn from that?
    Ambassador Krol. Well, it has had a reputation of being--
having a rather freewheeling press, but I would have to say, 
Senator, there have been some disturbing signs of--where 
journalists have been beaten up, and there's been some pulling 
back in the media, if you want to call it self-censorship, and 
things of this nature. And this is something, again, that we 
speak about with the Kyrgyz authorities, who are quite proud of 
their, sort of, being a--as they would view, an example of a 
free--more free society in the area, that they really need to 
address these issues, because they're becoming increasingly 
disturbing and need to be addressed. And I know it's disturbing 
to many people within Kyrgyzstan, as well. So, it's an issue 
that we deal with; it's right in our bilateral discussions with 
them. And unfortunately, it's one that we have to keep raising 
with great consistency.
    Senator Kaufman. Good, I encourage you to do that.
    Can both of you comment on the extent that Afghanistan's 
narcotics problems spill over into Central Asia?
    Ambassador Krol. Senator, the growth of narcotics trade, 
and even the usage of it, is increasing, is our understanding 
in Central Asia. And in my travels in the region, speaking with 
the governments on it, they see this, as well. And it's an area 
where they want, and we work cooperatively with them, to 
increase their counternarcotics programs and their own capacity 
to deal with counternarcotics in the region. I don't have the 
figures, but I know that our sense is that it is growing, and 
not just the trade, but also the usage of narcotics in these 
countries. So, we're working with them on their own health 
issues, first, to recognize that there's a problem, but then, 
also how can we work with them to thwart it.
    And this is also a cooperative effort with regional actors, 
such as Russia and organizations like the European Union, the 
United Nations, and elsewhere, because it's a global scourge.
    Senator Kaufman. I have one last thing. You mentioned 
Russia and their involvement. We talked about freedom of the 
press, political rights, civil liberties. Are Russia and China 
actors to help these issues move forward, or are they actors to 
try to discourage these leaders from getting involved in 
political rights, civil liberties, and a free press?
    Ambassador Krol. Well, I think that they--China and Russia 
have more interests that are from the economic standpoint and 
from their--and their security standpoint in the region, less 
so in what they would view as interfering in the domestic or 
internal affairs of these countries. So, I think that they are 
interested, and their view of stability is, you know, is 
ensuring that there are strong governments in the area on it 
too.
    But, it's an issue that we have discussed, I think, with 
Russia, as well, about why it's also in their interest, too, to 
see that these--having these societies and their own societies 
develop these institutions--democratic institutions and a free 
press and everything, is something that we can all benefit 
from.
    Senator Kaufman. Great.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Kaufman. Thanks for being 
here today. It's a busy time for the Senate. We're grateful 
when our members are at a subcommittee hearing like this.
    I know we're just about out of time. We're almost at 11:15. 
I know we have a second panel, and we're trying to keep this 
within the hour-and-45-minute timeframe. We've been here an 
hour and 15, so we have to move.
    Just one quick question--and I know there are many, many 
more that we could ask, and we'll submit those questions for 
the record, but, Mr. Sedney, before we wrap up this first 
panel, I wanted to ask you about the bilateral military 
cooperation between the United States and these Central Asian 
countries. What can you tell us about that, the nature of it, 
the extent of it, what kind of training is done, any kind of 
joint military exercises, especially in light of what's 
happening to the south, with our engagement in Afghanistan?
    Mr. Sedney. Certainly, Senator. We have a range of military 
activities with each country that reflects each country's, 
essentially, own perceptions of its needs and their willingness 
to engage in those activities.
    I'll start with Kazakhstan. We have a very broad range of 
military cooperation with Kazakhstan. I'd highlight the fact 
that the Kazakhs sent troops to help participate in Iraq. The--
we have provided, actually over the whole--almost 20 years, 
since the independence of Kazakhstan, a wide range of training 
with Kazakhstan, both, I mentioned before, the Marshall Center, 
but also through the NATO Partnership for Peace. We have been 
helping with the Kazakhs to help to train up a battalion of 
peacekeeping forces--the KAZBRIG--using different sources of 
funding for that. There have been--there are areas, in terms of 
military sales, that we are having--we've moved forward with. 
And under the FMF program, there's a program to supply 
Kazakhstan with Huey helicopters. We've had some discussion 
about some other military supply issues. So, there's a really 
wide range of activities with Kazakhstan.
    With Uzbekistan, we did have a wide range of activities, 
but, following the incident at Andijan, the massacre at Andijan 
that you mentioned, the Uzbek Government cut off our military-
to-military ties, to a large extent, so our military ties with 
Uzbekistan are very limited now, and--but, we believe that 
with--there's a possibility of doing more of the recent 
language, that I believe has been included in legislation, that 
allows for the--for IMET and some other programs from 
Congress--we think is a good step forward.
    In terms of Kyrgyzstan, obviously a smaller military, but 
we've had a range of cooperation, including in the border 
areas, in--training in borders and training units where we--in 
terms of assisting in the struggle against terrorism.
    Tajikistan, the focus has been much more on military 
education and exchanges there.
    And in Turkmenistan, similarly, we've had some exchanges as 
well as some border activities.
    But, I can get you a more inclusive list, and will do so, 
sir.
    Senator Casey. Thank you very much.
    I know we have to move to our second panel, but I do want 
to thank both Deputy Assistant Secretaries for their presence 
here, for their testimony, and for your public service, 
especially at this time in our Nation's history. We're grateful 
that you were able to join us today.
    And we'll move to our second panel. As we transition to the 
second panel, I'll begin to do a quick overview of our two 
panelists' biographies. It won't--as we always do in these 
hearings--the overview doesn't do justice to their whole 
careers.
    First I wanted to introduce Dr. Martha Brill Olcott, who is 
a senior associate at the Carnegie Endowment for International 
Peace. Dr. Olcott has followed interethnic relations in Russia 
in the states of the former Soviet Union for more than 25 
years, and has traveled extensively in these countries and in 
South Asia. In addition to her work in Washington, Dr. Olcott 
codirects the Carnegie Moscow Center Project on Religion, 
Society, and Security in the former Soviet Union.
    Dr. Olcott, we're grateful for your presence here, and for 
your scholarship in these areas.
    Dr. Olcott is joined today by Dr. Stephen Blank. Dr. Blank 
has served as the Strategic Studies Institute expert on the 
Soviet Bloc and post-Soviet world since 1989. The Strategic 
Studies Institute is housed at the Army War College in 
Carlisle, PA.
    Dr. Blank, we wanted to note that for the record, about 
Pennsylvania.
    Dr. Blank's current research deals with the--with 
proliferation, and the revolution in military affairs, and 
energy and security in Eurasia.
    I'm proud that the Army War College is represented here 
today; as I mentioned, located in Carlisle, PA. I was also glad 
to hear that Dr. Blank is a graduate of the University of 
Pennsylvania.
    Is that correct? Did I get that?
    Dr. Blank. Yes, sir.
    Senator Casey. Another highlight.
    Despite all of that Pennsylvania background, I'm going to 
start with Dr. Olcott. [Laughter.]
    We'll go in that order.
    Thanks, Doctor.

STATEMENT OF MARTHA BRILL OLCOTT, SENIOR ASSOCIATE, RUSSIA AND 
 EURASIA PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Dr. Olcott. Thank you. I lived in Philadelphia for a year, 
so----
    Senator Casey. All the more reason why you should go first.
    Dr. Olcott. Thank you. OK. It's a privilege to be here 
today, and I will enter my full testimony into the record, and 
just try to hit the highlights of what I've sent in.
    Senator Casey. For the record, both statements will be----
    Dr. Olcott. Thank you, very much.
    Senator Casey [continuing]. The full statements will be in 
the record.
    Dr. Olcott. OK. We've heard the priorities of U.S. policy 
in the previous panel, and so I don't want to spend my time on 
them. I would just note that these priorities, with the 
exception of adding the NDN, have been largely unchanged since 
2001.
    In my testimony, I want to look at what's changed in 
Central Asia since 2001, and then make some very brief policy 
recommendations.
    I would argue that U.S. engagement in Central Asia is going 
on against a very different backdrop than was the case in 2001, 
and what we've seen is, first, that the Central Asian states 
are much more actively engaged as international actors than 
previously. There are lots of examples of it. The most notable, 
I would say, is Kazakhstan's forthcoming chairmanship of the 
OSCE, which begins in 3 weeks.
    Second, the next most profound change is the rise of China 
in the region. The Chinese Central Asian pipeline was 
inaugurated yesterday, in the presence of the President of 
China, Kazakhstan, Turkmenistan, and Uzbekistan. China is 
rapidly becoming the largest foreign owner of oil and gas 
resources in the region, and a critical source of developmental 
loans for that region.
    Third, I would say that the limits of Russia's ability to 
reassert its economic and military power in the region have 
been reached, and though the Kremlin itself may not recognize 
this. I would say that the Collective Security Treaty 
Organization has as yet been unable to turn its proposed Rapid 
Reaction Force into an effective regional multinational force 
that is able to engage in anywhere like the range of activities 
that NATO pursues in the countries of its engagement.
    Second, with regard to Russia, I would say that the new 
customs union between Russia, Kazakhstan, and Belarus, set to 
be introduced in the first half of 2010, is more a sign of a 
competitive weakness of Russia's economy than of that country's 
economic strength.
    And third, with regard to Russia, their relations to these 
states has been done great damage by the drop in the price of 
gas, and the drop in demand for Russia's gas in Europe.
    The fourth set of international factors that have changed 
are the influences of leading actors in the Islamic world, 
which have increased in Central Asia in recent years. Despite 
the efforts of the United States and European Union to isolate 
Iran, this regional nation continues to play a visible role in 
Central Asia. Trade with the Arab world is increasing, 
especially with the states of the gulf. This is going on in an 
environment in which Turkey's influence has remained relatively 
unchanged. And this is not to say that these countries have a--
had a pro-Islamic policy. Several of the countries in the 
region are very close to Israel. And this has not changed at 
all.
    Fifth--and I think this is really important--the United 
States and Central Asian security interests, which have been so 
overlapping for the last 8 years, could soon begin to diverge, 
as the United States activity in Afghanistan could be entering 
its final stage. Now, for the first time, Central Asian states 
have to begin to worry about how they're going to protect their 
borders, and their security more generally, when Washington 
departs.
    Point two. There have been a variety of changes in the 
economic and political environment in the region. While a host 
of regional problems remain, the countries of Central Asia are 
becoming increasingly more differentiated, one from the other. 
Although none in the region can be considered to be a 
democracy, each is developing a distinct political system, and 
some come much closer to democracies than others. The stability 
of these systems have not yet been tested by succession in 
either Uzbekistan or Kazakhstan, and all five countries still 
face the challenge of bringing a post-Soviet generation of 
leaders to power.
    I'd like to make a few comments about Kazakhstan's 
political system, which I think is relevant, because the 
Kazakhs are becoming chairman of the OSCE. And I have detailed 
comments about the other systems in the text, but for now let 
me make a few comments about Kazakhstan. Despite some 
disturbing recent events in Kazakhstan, the seemingly 
politically motivated handling of the Zhovtis case, which 
involved a vehicular death while he was behind the wheel; the 
new Internet law; the treatment of independent media, more 
generally; the increasing use of criminal courts to try to 
settle political and business infighting--nonetheless, 
Kazakhstan is a country in which vigorous political debate is 
still possible, including in at least some forms of media, 
where NGOs--where many NGOs--are able to function in public 
space, and where private space is almost entirely free of 
government interference. And I distinguish private space from 
public space.
    The United States has considerable leverage in Kazakhstan, 
given that country's desire for an OSCE summit to be held in 
Astana in summer 2010. But, this leverage and our criticism of 
Kazakhstan's system should be applied in a systemic fashion.
    OK, I'm not going to talk about the others, with regard to 
politics.
    Second, economically, the region has become much more 
differentiated, divided into rich and poor countries. Let me 
talk briefly about the poorer ones. Again, I have, in the text, 
about everybody.
    The economic challenges that the region's two poorest 
countries face--Kyrgyzstan and Tajikistan--have increased. 
Chronic energy shortages have hampered the development of both 
countries, and in atypically cold winters, this reaches crisis 
proportions, which was the case in 2007-08.
    We've now had the breakup of the regional electricity grid. 
This creates new short-term challenges, but it could prove to 
be positive for each country's development if it leads to more 
rapid reform of their respective electricity sectors. This will 
not be possible without substantial international guidance, 
including by the United States, and funding from the IFIs. 
Without careful management, it could lead to an exacerbation of 
regional tensions because of the shared water system.
    I'm almost out of time, so I'm going to skip the next part.
    Third, I think that there has been increasing 
differentiation of the countries themselves. Again, with the 
exception of Kazakhstan, there has been a process of 
retraditionalization, which has become the dominant social 
factor in all the other countries. This has been accelerated in 
places where the quality of education has declined most 
markedly, such as Turkmenistan, Tajikistan, and rural areas of 
Kyrgyzstan. Islam is a growing factor everywhere in Central 
Asia.
    Let me go to my four recommendations, very, very briefly, 
because I'm out of time.
    First, I think the United States should expand military 
assistance to the Central Asian countries, especially 
assistance that is geared toward enhancing their capacity to 
maintain effective border controls for the time in which we 
will have left the region.
    Second, I think it is time to visit the old--revisit the 
U.S. multipipeline strategy. The new Turkmen-China pipeline has 
given Central Asia realistic alternatives to Russia. Europe has 
other ways it can reduce its vulnerability to trade disruptions 
from Russia; details in the text. And Turkey is not always a 
more commercially attractive option. They need to get good 
prices from Turkey, as well. The key, for me, is getting 
commercially attractive terms of trade, and this should be what 
our priority is. I can come back to that, if there's interest.
    Third, U.S. policy must look more creatively at the 
challenge of building democracy in the region, and be more 
sensitive to the differences between countries and to the 
effects of generational change. More focus has to be placed on 
working with the IFIs to improve both the physical conditions 
and content of education at the primary and secondary levels, 
as well as access to the Internet. These societies will not 
remain secular ones unless educational conditions in rural 
areas improve.
    And finally, the United States has to redouble its efforts 
to enhance coordination of assistance from the IFIs and other 
forms of bilateral assistance to be able to better leverage the 
kind of Western assistance that goes into these countries, to 
help these states deal with--and to relieve their short- and 
medium-term energy shortages, as well as address their long-
term challenges in the energy sector.
    Thank you very much.
    [The prepared statement of Dr. Olcott follows:]

Prepared Statement of Martha Brill Olcott, Senior Associate, Russia and 
     Eurasia Program, Carnegie Endowment for International Peace, 
                             Washington, DC

    Thank you very much for the opportunity to testify before you 
today.
    In my allotted time I will provide a brief summary of my written 
testimony, which was submitted to you.
    Although congressional focus on the region has increased, U.S. 
priorities in Central Asia have changed little over the past 8 years, 
since 9/11 and the launching of the ISAF operation in Afghanistan.
    With that Central Asia became an area of direct security concern 
for the United States first to help launch the attack on Afghanistan, 
and now with the growing security challenges within Pakistan, as a 
critical supply route. Second, U.S. interest in increasing direct 
Western access (through Turkey) to Central Asia's energy resources also 
increased, especially since our allies in Europe experienced energy 
shortages caused by Russian cutoffs of gas to Ukraine. Third and 
finally, of course, U.S. policy continued to press for the advancement 
of rule of law, the spread of democratic values, the expansion of civil 
society and the development of market economies in the region.
    While the first set of concerns, those relating to the 
participation of the Central Asian countries in ISAF efforts, is of 
greatest immediate moment for U.S. policymakers, there remains a 
widespread belief that without attention to the third set of concerns, 
the long-term stability of the region will not be insured. And for the 
past 10 years, U.S. support for multiple pipelines, especially those 
that bypass Russia by transiting Caspian gas across Turkey, has become 
something of a mantra of U.S. policies in the region, supported by 
three U.S. administrations and both political parties.
    U.S. policymakers have generally been reassured by Central Asian 
policymakers that they share the first and third set of goals--support 
for ISAF and for multiple pipeline routes--but it is on the third set 
of policies that they have required constant reassurance. While these 
countries vary in the openness of their political systems as well as 
the market-based nature of their economies, all of the leaders in the 
region remain unconvinced that their populations are suited for Western 
style democracies, each believing that stability is best guaranteed by 
a ``strong hand.''
    Because of this there has been very little systematic reexamination 
of U.S. policies in Central Asia, just a discussion of how best to 
advance these interests; i.e., what modifications should be made in the 
policies that are being applied to advance these goals. Major increases 
in funding are rarely on the table, so mostly in recent years, in 
particular, the discussion is on how to spend money more effectively, 
and how to shift resources from country to country in the region.
    But as the war in Afghanistan begins to enter a new, and hopefully 
now final phase in which the focus on making the Afghan Government more 
competent to ensure domestic security, it seems worthwhile to reexamine 
some of the premises of U.S. policy in the region, from the perspective 
of whether the conditions in the region have changed in these last 8 
years, making these policy objectives more difficult to attain, or no 
longer as relevant.
                   what has changed in central asia?
    U.S. engagement in Central Asia is going on against a very 
different geopolitical backdrop that was the case 8 years ago.
    First the environment has increased in size and scope, with all of 
these countries being more engaged in the international community, at 
various levels, than they were previously. There are numerous examples 
of this, from Kazakhstan's forthcoming chairmanship of the OSCE, only 
days away now, or Turkmenistan's effective redefinition of its doctrine 
of positive neutrality to allow for far greater international 
engagement than was true under its late founding president. Just 
looking at the travel schedules of these five leaders is enough to make 
anyone exhausted, not to mention how many heads of states and Foreign 
Ministers that they receive. But to date no U.S. President has visited 
Central Asia, with visits by U.S. Vice Presidents and Secretaries of 
State few and far between.
    The second big change is the rise of China in the region. This week 
the Presidents of China, Kazakhstan, Uzbekistan, and Turkmenistan have 
all gathered in Turkmenistan to mark the opening of the new gas 
pipeline which links gas fields in these three countries with markets 
in China. When this pipeline is completed and filled to planned 
capacity these Central Asian countries will be able to ship to China 
roughly two-thirds the volume that currently goes to Russia. Most of 
this will come from Turkmenistan, which took a $3 billion loan from 
Beijing in June, to help Ashgabat compensate for its loss of income 
following its cutoff of gas sales to Russia in April 2009. That same 
month (April) China has also offered Kazakhstan some $10 billion in 
financing, part as loans and part for shares in MangystauMunaiGaz, 
which will make Chinese companies the largest single foreign owner of 
on-shore oil and gas assets in Kazakhstan. China also substantially 
increased its share of trade with both Kyrgyzstan and Tajikistan, and 
is responsible for many of the major road projects in the latter 
country.
    Third, the limits of Russia's ability to reassert its economic and 
military power in the region seem to have been reached, although the 
Kremlin itself may still be having difficulty accepting this. Moscow 
has tried to expand the functions of the CSTO (Collective Security 
Treaty Organization) to make it parallel to NATO in importance, but has 
not been able to turn its proposed Rapid Reaction Force into a regional 
multinational force able to engage in anything like the range of 
activities that NATO is capable of pursuing. While Kazakhstan, 
Tajikistan, and Kyrgyzstan all participate in the CSTO, Tashkent has 
effectively frozen its membership, by passing legislation which bars 
the Uzbek military from participating in military activities outside 
the borders of the country. The reason for this, Tashkent's conviction 
that Russia plans to use its new CSTO base in Osh to regulate the 
internal developments in CSTO Member States, rather than the mutual 
defense functions that the organization was designed to regulate.
    Russia's economic position in the region has also been weakened 
largely because of the global economic crisis, which brought with it 
lower oil and gas prices, and tough choices for the formerly cash rush 
Russian Government. The new customs union between Russia, Kazakhstan, 
and Belarus, set to be introduced in the first half of 2010, is more a 
sign of the competitive weakness of these economies rather than their 
economic strengths. While Moscow has set up a fund for helping its CIS 
partner states cope with the global financial crisis, some major 
investment projects, like Kambarata hydroelectric station have been 
slow to materialize and many of the loans offered have been for the 
purchase of Russian manufactured goods, albeit on low-interest long-
term notes. Most damaging of all has been the drop in demand for, and 
price of, Russia's gas in Europe, which meant that Gazprom needed less 
Central Asian gas and was willing to pay less for it.
    Fourth, the influences of leading actors in the Islamic world have 
increased in Central Asia. Despite years of U.S. and EU efforts to 
isolate Iran, this regional nation continues to play a visible rule 
throughout Central Asia. Turkmen gas exports to Iran are set to double, 
and with the boycott of Uzbek cotton (because of their child labor 
practices) Iran is buying more and more of their crop. Trade with the 
Arab world is increasing, especially with the states in the gulf. They 
are becoming a source of influence for Uzbekistan's small- and medium-
size entrepreneurs and will be visible public presence in Tajikistan is 
building the world's largest mosque, set to open in 2014, built by 
funds from Qatar and UAE. While this is going on Turkey's influence has 
remained relatively unchanged. It is also important to note here that 
this has not been a pro-Islamic policy, as these governments are as 
close to Israel as they were previously and Kazakhstan and Uzbekistan 
in particular remain very solicitous of these Jewish communities
    Fifth, the Central Asians know that the United States is now 
thinking about going home. For the last 8 years Washington has been 
able to argue that U.S. and Central Asian security interests in 
Afghanistan were almost entirely overlapping. Now however, the Central 
Asian states have to begin worrying about how they are going to protect 
their interests when Washington departs, both to protect their borders 
from possible incursions by armed groups and illegal trade (such as 
drugs and arms) and refuge flows, and to try and maintain good 
relations with whomever may come to power in Afghanistan. Tajikistan 
has already provided refuge for several thousand ethnic Tajik refugees 
from Afghanistan, and Uzbekistan is pressing for international dialogue 
with all political elements in Afghanistan (through the revival of a 
variant of the 6+2 formula). In fact, in each of the countries of the 
region there is wariness about the potential stability of the Karzai 
government or a formula what might occur if a broader social consensus 
is not achieved there, especially given the increasing social 
fragmentation in Pakistan.
 what has changed within central asia: increasing political social and 
                        economic differentiation
    For certain questions it still makes sense to talk about Central 
Asia as a distinct region, with shared historic influences, ethnic 
communities that are dispersed across new international borders, a 
largely shared water system, and transport linkages that are at least 
partly the product of natural geographic divides (mountains) as much as 
the legacy of three generations of Soviet planners. Yet the countries 
of Central Asia are becoming increasingly more differentiated from one 
and another, making it necessary.
    First, while none of the countries in the region can yet be 
considered to be democracies, each is developing a very distinct 
political system, whose stability has not yet been fully tested by 
succession (in the case of Kazakhstan and Uzbekistan) or by the 
transfer of power to a post-Soviet generation of leaders (in all five 
countries). In general the United States has found few effective levers 
to use to try and speed up the process of democracy-building in the 
region, which overall has had at least as many setbacks as successes in 
the past 8 years. Let me quickly review developments and prospects 
here:

          Kazakhstan: Despite some very disturbing recent developments 
        (the seemingly politically motivated handling of Evgenii 
        Zhovtis' case involving a vehicular death that occurred while 
        he was driving, the new Internet law and the treatment of 
        independent media more generally, and the increasing use of 
        criminal courts to try to settle political and business 
        infighting) Kazakhstan is a country in which vigorous political 
        debate is still possible, including in at least some forms of 
        media, where NGOs are able to function in public space and 
        where private space is almost entirely free of government 
        interference. In general the new constitution is a step in the 
        right direction, allowing for enhanced parliamentary power, and 
        a larger degree of judicial independence. But for it to have 
        meaning subsequent parliamentary elections will need to be much 
        freer from top-down management, opposition political parties 
        will need to become more competent, and the reform of the legal 
        system will need to be carried out with greater vigor. The 
        United States has considerable leverage in Kazakhstan given 
        that country's desire for an OSCE summit to be held in Astana 
        in summer 2010, but criticism is best applied in a systemic 
        fashion.
          Kyrgyzstan: The Bakiyev government has not made good on many 
        of the promises to liberalize the political system that were 
        made during the ``Tulip'' revolution. It is not clear what 
        leverage the United States has, given fears of losing access to 
        the airport at Manas, and that Bakiyev's people have decided 
        that Russia's ``political engineers'' are more to their 
        likening than American style NGOs.
          Tajikistan: More and more power is being concentrated in the 
        hands of President Rahmon and his family, and the role of 
        opposition parties and NGOs has diminished substantially.
          While public space has been reduced, private space remains 
        largely unchanged, with the exception of a much more aggressive 
        effort by the state to modify Islamic traditions and teachings 
        in order to emphasize an albeit more modest (in how weddings, 
        funerals, and other rituals are carried out) but strictly 
        Hanafi school of Islamic law. Here, too, U.S. leverage is 
        extremely limited, unless we want to cut out much-needed 
        economic assistance in order to teach the Tajik Government a 
        political lesson. Such a practice would further endanger 
        regional stability as it could lead to popular unrest with 
        unpredictable outcomes.
          Uzbekistan: I have argued elsewhere (in Central Asia's Second 
        Chance) that had a more robust financial assistance package 
        (from the IFIs and not just bilateral U.S. assistance) been 
        offered to Tashkent in the aftermath of 9/11 the process of 
        both economic and political reform could have been speeded up 
        in that country. Since Andijian the security capacity of the 
        Uzbek Government has been enhanced, but there has also been, 
        albeit very slow, some improvement of the country's legal 
        system, and at least one prominent political prisoner has been 
        released. U.S. leverage here is limited, especially given the 
        kinds of financial limitations on the assistance side of the 
        equation, but Tashkent is more eager for a close relationship 
        with the United States than has been true for several years.
          Turkmenistan: There has been something of a political opening 
        since Niyazov's death, but public and private space remain 
        quite limited in the country, especially given how little 
        contact most Turkmen are able to have with the larger global 
        community.

    Second, economically the region has become much more 
differentiated, divided into rich and poor countries, as well as 
countries with largely open, and those with largely closed economies. 
Once again Kazakhstan is in a largely ``stand alone'' situation, with 
the strongest and largest economy in the region. The government made 
use of its National Fund to stabilize the country's economy during last 
year's global crisis, and although the fundamental causes of the 
weakness of Kazakhstan's banking system have yet to be addressed, the 
corner seems to have been safely turned at least for the moment.
    Uzbekistan and Turkmenistan were largely insulated from last year's 
crisis by the insulated nature of their economies, which are still 
largely state owned or (save for Uzbekistan's small and medium business 
sector) largely state managed. Uzbekistan dealt with its population's 
loss of remittance income (from Russia and Kazakhstan) by launching a 
massive public works program, but the long-term economic stability of 
both countries will not be assured without substantial reform, 
especially of the agricultural (and water intensive cotton) sector.
    The economic challenges that the region's two poorest countries 
face, Kyrgyzstan and Tajikistan, have increased. Chronic energy 
shortages have hampered economic development in both countries and led 
to a serious deterioration of social and economic conditions in rural, 
and especially in remote rural communities. As winter 2007-08 
demonstrated, in atypically cold years the situation becomes one of 
humanitarian crisis, where the international community is called upon 
to provide food and warm shelter. The breakup of the old Soviet-era 
centralized regional electricity grid (with Uzbekistan and Kazakhstan's 
withdrawal) is likely to create new short-term challenges, but will 
prove to be a positive step for each country's economic development if 
it leads to more rapid reform of their electricity sectors (production, 
distribution, and tariffs). This will not be possible without 
substantial international guidance, including by the United States and 
funding from the IFI. Without careful management, it could lead to an 
exacerbation of regional tensions, especially if upstream users 
precipitously cut water to downstream users to generate electricity. 
Kyrgyzstan has proved an amenable environment to work in to try and 
alleviate the challenges energy shortages particularly through the use 
of alternative sources of energy. Working with Tajikistan is more 
challenging, in part because of the more endemic corruption in that 
sector there.
    Third, the populations of the Central Asian countries are becoming 
more distinct, in part because of different educational and cultural 
influences. Within a generation there will no longer be a common 
language uniting most of the citizens of this region, and neither 
Russian nor English will be able to fill this role.
    Kazakhstan's population has been most influenced by global forces, 
through the education of thousands of young people in the West each 
year (who are required to return home for at least 2 years and placed 
in government service), extensive contact with Asian countries, and for 
another sector of the population, a growing influence from the Islamic 
world (through seminaries in Egypt, Saudi Arabia, the gulf states and 
Turkey). While these trends could produce social tensions (especially 
since here, too, there is a retraditionalization going on in rural 
areas) the polity that is emerging is quite complex.
    In all of the other countries the process of retraditionalization 
is the dominant social factor, and its pace has been accelerated where 
the quality of education has declined most markedly, such as 
Turkmenistan, Tajikistan, and in rural areas of Kyrgyzstan. Islam is a 
growing factor everywhere in Central Asia. Despite the efforts of all 
of the states to control its practice (and the Western press tends to 
exaggerate the amount of religious repression that exists) religion is 
a dynamic force everywhere in the region.
                     what lessons should be drawn?
    First, the United States should expand military assistance to the 
Central Asian nations, especially assistance that is geared to enhance 
their capacity to maintain effective border controls. This is the most 
valuable assistance we can provide them with in the short term.
    Second, it is time to revisit the old U.S. multiple pipeline 
strategy. The new Turkmen-Uzbek-Kazakh-China pipeline has given the 
Central Asians a realistic alternative to Russia. Europe can reduce 
their vulnerability to trade disruptions from Russia by adding more LNG 
into their energy mix, and creating more interlinkages within the EU as 
well as a EU-wide strategic reserve. Policies toward this end are 
already under debate in the EU. The priority of the Central Asian 
states must be on getting commercially attractive terms of trade. 
Opening new pipelines through Turkey go only partway toward achieving 
this, especially if Turkey's gas lobby keeps transit fees high and 
purchase prices at the Turkish border low (the reason why Azerbaijan 
has just signed a small gas deal with Russia). The gas trade has to 
become on a commercial footing.
    Third, U.S. policymakers must look more creatively at the challenge 
of democracy building in the region, and become more sensitive to the 
differences between countries and the generational change that is 
occurring at the societal level. There should be more attention to in-
country projects that improve the physical conditions of education, so 
that children will go to school. Access to the Internet is critical, 
but projects must be designed that provide energy as well as Internet 
access. These societies will not remain secular ones unless conditions 
in rural communities improve, for that is where the overwhelming 
majority of the population lives, and unless this occurs there will be 
no ``home'' to go back to for Western-educated Central Asian youth. 
They will simply be unwelcome, or at best alien.
    Fourth and finally, the United States should redouble efforts to 
enhance the coordination of the IFIs and other bilateral assistance 
providers to work with the Central Asian states to help them relieve 
their short- and medium-term energy shortages, as well as addressing 
the long-term challenges. This requires bottom-up and not just top-down 
engagement, but the former is easier to achieve local government 
support for and ownership of than the latter. While the format of 
bilateral consultations that have been developed by the Obama 
administration reflects the reality of five increasingly more 
differentiated countries developing, there are a host of regional 
problems that much be addressed in concert.

    Senator Casey. Dr. Olcott, you are one of the few that 
observed the time pretty closely here. Doing a lot better than 
most of the folks around here, Senators and non-Senators alike. 
I know I went over my time. I think our other witnesses did, 
too, but we won't talk about that.
    Dr. Blank.

  STATEMENT OF STEPHEN J. BLANK, PROFESSOR, STRATEGIC STUDIES 
    INSTITUTE, UNITED STATES ARMY WAR COLLEGE, CARLISLE, PA

    Dr. Blank. Thank you, Senator Casey.
    Senator Casey, Senator Shaheen, it's a great honor to 
testify before this committee. and my remarks reflect my views, 
not those of the Army or the Defense Department, or of the 
great State of Pennsylvania, even though Martha and I actually 
went to graduate school together in another State. But, we'll 
leave that aside.
    Senator Casey. Don't talk about that today.
    Dr. Blank. Yes.
    Central Asia is of pivotal importance, not just because of 
Afghanistan. The urgency of the war in Afghanistan colors our 
thinking about the region, but there are multiple security 
issues and threats there that could impact upon international 
security in general, and United States foreign policy and 
security interests in particular. Many of them are domestic in 
origin.
    These countries, to varying degrees, suffer from what a 
colleague of mine, Max Manwaring, calls ``illegitimate 
governance.'' They are authoritarian states in which we see 
manifestations of despotism, clan, familial rule, nepotism, 
suffocation of the autonomous space for political action, and 
in most cases they believe that all opposition is inherently 
extremist, terrorist, and fundamentalist, which leads to the 
self-fulfilling prophecy that, as a result of this, all 
opposition generally tends to crystallize around an Islamic 
radical vocabulary, because that's the language that's 
available to them, and all other opportunities have been 
snuffed out.
    Beyond that, succession is the Achilles' heel of all the 
governments in the region. When President Niyazov died suddenly 
in 2006, about 3 years ago exactly, there was widespread 
anxiety, throughout the region and in Russia, that a war might 
break out or the internal upheaval might break out. That was 
not the case, but the perception that this was a very likely 
possibility underscores the weakness of the succession 
mechanisms in all of these authoritarian cases, and the fact 
that political disputes cannot necessarily be resolved 
peacefully by these local governments.
    Furthermore, the chance of any genuine regional security 
cooperation from within--organizations like the Shanghai 
Cooperation Organization or the Collective Security Treaty 
Organization--is very slim. Both of these are externally 
generated. The idea did not come from the region themselves. 
They are, first of all, vehicles for the major great powers, 
Russia and China in particular, to assert their interests, and 
then, second, opportunities for Central Asian governments to 
assert their interests, vis-a-vis Russia and China. But, they 
are untested. It is unclear whether or they could adequately 
respond to new challenges; and what's more, the CSTO, which is 
the military arm of this, has explicitly said it will not 
intervene in the domestic affairs of the Central Asian states, 
which is precisely where challenges may come about.
    Furthermore, within the region, there are rivalries among 
the states. Kazakhstan and Uzbekistan are notorious for being 
contenders and rivals for regional leadership. And Kazakhstan, 
because of its outstanding economic success, is in a position 
to try and advance its claim to regional leadership, which only 
exacerbates the rivalry with Uzbekistan further.
    Martha has alluded to the problems of water. Water and 
electric energy, and energy use in general, are extremely 
sensitive issues that have led to, already, political clashes 
and rising security tensions among Uzbekistan, Tajikistan, and 
Kyrgyzstan. And, beyond that, Uzbekistan has a long history of 
being at odds with all of its neighbors and habitually waging 
economic warfare by closing borders or restricting energy 
shipments and so on.
    So, we have a region which has extremely diverse security 
challenges and rather few instruments with which to meet them, 
and which is growing in importance, because not only of the war 
in Afghanistan, but because, first of all, of its proximity to 
major international actors, like Russia, China, Iran, and the 
Indian subcontinent, and because European energy security 
depends, ultimately, on Europe's ability to gain unfettered or 
free competitive access to Central Asian energy. And to the 
extent that Europe can't do so, it becomes dependent on Russian 
gas, in particular.
    However, in that situation, what we find is that, despite 
the growing importance of Central Asia, there is no discernible 
United States strategy for Central Asia. There is a strategy 
for the Northern Distribution Network, but there is no strategy 
that ties together the energy, Afghanistan, domestic issues, 
and no commensurate investment of United States resources, 
either private or public, in these states, to the degree that 
its importance is growing. And as a result, our influence, sad 
to say, is diminishing. And after 2011, assuming that the 
administration follows through on President Obama's 
announcement that we will start withdrawing troops from 
Afghanistan, our credibility in the region will decline even 
further, unless there is alternative forms of United States 
presence on the ground, commensurate with the requirements of 
victory in Afghanistan and stability in Central Asia.
    Under those circumstances, we face a very significant 
situation, because, as Martha has pointed out, we are at about 
the limit of where Russia can go, in terms of influencing the 
region, and we're only at the beginning of Chinese economic 
power, as manifested throughout Central Asia. The Chinese are 
now investing, in very large numbers in Central Asia, in major 
projects worth billions of dollars; the pipeline that was 
opened yesterday is only one of them. Reports say that they 
will not invest in projects for anything less than $5 billion. 
So, this gives you an example about the scale of Chinese 
thinking.
    Furthermore, there are reports from the region--
unconfirmed, but nonetheless they came to me--saying that the 
Chinese Government told Kyrgyzstan, during the negotiations 
over Manas, that if the United States couldn't give them the 
money they wanted, China would make up the difference, 
indicating China's willingness to play a major security role in 
Central Asia through, first of all, economic leverage. But, 
ultimately, economic leverage will not be the only 
manifestation of Chinese presence.
    Therefore, the United States has to reconsider Central 
Asia, in strategic terms. We must continue the Bush 
administration's emphasis on integrating Central Asia with 
South Asia, to the extent that it's possible, and overcoming 
Indo-Pakistani rivalry, in general--and, in particular, in this 
region--so that both of these states can help Central Asia, 
rather than compete against each other there.
    Furthermore, there must be a sustained strategic 
perspective within the government--as Ambassador Krol said, a 
whole-of-government perspective--to bring together all the 
relevant agencies to work together toward a common aim in 
Central Asia.
    Third, there must be much greater high-level--not 
ambassadorial, but high-level--Cabinet, Vice President, 
Presidential--attention paid to the region, visits both to and 
from the region at those levels, and a tremendous integration 
with Europe on the issue of opening up pipelines so that states 
like Kazakhstan and Turkmenistan can feel free to build the 
Nabucco pipeline or other pipelines to Europe without fear of 
retaliation from Russia, and gain genuine economic 
independence.
    Thank you.
    [The prepared statement of Mr. Blank follows:]

   Prepared Statement of Dr. Stephen J. Blank, Professor, Strategic 
         Studies, U.S. Army War College, Carlisle Barracks, PA

    Central Asia's importance to the United States is rooted in the 
following three facts: its proximity to Afghanistan and thus the seat 
of the Taliban and al-Qaeda that have attacked us and will do so again; 
its proximity to key states like Russia, Iran, China, and the Indian 
subcontinent; and its large energy deposits which are becoming critical 
for Europe. These facts have led every administration since 1993 to 
advance the following broad geostrategic goals for Central Asia. First 
it is critical that the threat posed by the Taliban and its allies in 
al-Qaeda and other associated terrorist groups be eradicated. Second, 
we seek to preclude the rebirth of any Eurasian empire and thus 
guarantee that Central Asian states retain their full sovereignty to 
choose their own path in world affairs without being subordinated to 
any one state. Third, we seek equal access for Central Asian states to 
global energy markets rather than dependence upon one exclusive 
intermediary like Russia. Therefore we correspondingly seek equal 
access to their markets, including energy, for our own companies. Last, 
in practice, despite rhetoric to the contrary, democracy promotion has 
always come in fourth behind these objectives and that remains the case 
today.
    Those objectives and interests are at risk today from a combination 
of factors that place the security of Central Asian states at risk. 
Security and the threats to it in Central Asia are both 
multidimensional. The most urgent of the threats to regional security 
is, of course, the war in Afghanistan. But that war itself comprises 
multiple threats to the region while it exacerbates the risks posed by 
all the other existing threats to Central Asia. In some respects the 
threats posed by Afghanistan are classical or old-fashioned ones: e.g., 
the threat of a war spilling over Afghanistan's boundaries to engulf 
neighboring countries or should the Taliban and its allies win, the 
threat of terrorism spreading into Central Asian countries. In that 
event these terrorist movements would no doubt soon try to overthrow 
the ruling Governments of Central Asia, most likely in Uzbekistan since 
the Islamic Movement of Uzbekistan (IMU) is an already existing 
organization. But Uzbekistan would likely not be the only state in 
which we would see such action as terrorist and insurgent groups would 
also probably try to incite hostile action against the other 
Governments in Central Asia.
    Indeed, all the Central Asian Governments have acted consistently 
upon the belief that all opposition to them is by definition Islamic, 
fundamentalist, and/or terrorist, and have therefore harshly repressed 
those phenomena whether that assessment is true or not. As a result the 
field has been left open only for such opposition movements to thrive. 
Therefore should the Taliban win in Afghanistan there would be, so to 
speak, ample dry timber lying around for them to ignite in their quest 
to spread their message and their politics. Thus the long-established 
threat of a revolutionary movement supported from abroad but finding 
sources of replenishment in neighboring states could become a genuine 
threat to regional security. But the threat potential embodied in this 
quite possible outcome becomes more likely by virtue of the existing 
shortcomings in these states' security systems.
    If we look at their domestic politics it becomes clear that only 
Kazakhstan is relatively (and I emphasize relatively) secure and likely 
to flourish in the near future. But it suffers from an ever-growing 
democratic deficit and its economy greatly depends on the price of 
energy and other commodities. Nonetheless under these conditions of 
autocracy and widespread corruption it is creating an educated middle 
class and striving to bring authentic prosperity and sustainable 
economic growth to the country. Given its proximity to Russia and China 
we can also assume that they would react quite vigorously to any 
genuine threat to Kazakhstan's security. Nevertheless its democratic 
deficit, uncertain succession picture, and the fact that its politics, 
like that of its Central Asian neighbors, is dominated by familial, 
clan, and factional politics are all negative signs concerning its 
prospects for future stability. Moreover, because Kazakhstan also 
aspires to a degree of regional leadership in Central Asia, it cannot 
stand aloof from regional issues and could be well drawn into potential 
future conflicts of the type discussed below.
    Turning from Kazakhstan, we find that the situation everywhere else 
is nowhere near as promising as in that case and in some cases much 
worse. Kyrgyzstan and Tajikistan are either failing states or 
perilously close to it. Turkmenistan is a repressive autocracy (if not 
quite as much as under Sapirmurad Niyazov who died in 2006) with a 
limited state capacity and a virtually complete dependence upon gas. 
Uzbekistan is no less repressive and has been dominated by President 
Islam Karimov since it became independent in 1991. It too depends 
heavily upon commodity prices for energy, gold, cotton, and Karimov has 
repeatedly brutally stifled any sign of opposition. In all four of 
these states, and possibly to a greater degree than Kazakhstan politics 
are largely those of family, faction, and clan leading to highly 
corrupt regimes even if it were not for the influence of the pervasive 
problems caused by the huge importation of narcotics from Afghanistan. 
In Tajikistan President Ermomali Rahmonov has built himself a $300 
million palace worth about half as much as the country's annual budget 
of $700 million and appointed his daughter to be Deputy Minister of 
Foreign Affairs. Similar phenomena are also visible in Kazakhstan and 
Uzbekistan where the President's daughters exercise enormous powers.
    Similarly in Kyrgyzstan President Kurmanbek Bakiyev has just 
appointed his son to be head of the Central Agency for Development, 
Investment, and Innovation. The Government of Kyrgyzstan is also shot 
through with criminality and corruption and like all the other Central 
Asian states has been relentlessly snuffing out all possibilities for 
liberal or democratic politics. Like Tajikistan, Kyrgyzstan has been 
hard hit by the current economic crisis and suffers from serious energy 
shortages. In all these states as well the scourge of narcotics has 
grown to alarming proportions following what appears to be an iron law 
that states through which drugs traverse as they go to market 
invariably end up by becoming havens for large-scale use of drugs as 
well. Apart from the wasted lives and huge social and health costs by 
this epidemic of drug use, the drug trade only adds to the pervasive 
corruption in these countries.
    Thus in all these countries misrule, nepotism, corruption, clan, 
faction, and family-based politics, a high degree of poverty, difficult 
economic conditions, and political repression are pervasive and the 
stuff of daily life. This lethal cocktail of security challenges offers 
the Taliban and al-Qaeda numerous opportunities for recruitment, 
especially as Islam is the only credible language of sociopolitical 
expression if all others are repressed. Should they win in Afghanistan 
their ability to exploit regional security challenges will grow 
commensurately. But the security deficits of the region go beyond this 
list of pathologies. There is no basis for regional security 
cooperation, quite the opposite. Uzbekistan is at odds with all of its 
neighbors and has repeatedly waged economic warfare against them or 
closed its borders. Neither is there any serious effort at regional 
economic cooperation so most countries compete with each other rather 
than seek ways to cooperate with each other for their mutual benefit. 
Indeed, Kazakhstan and Uzbekistan are quite openly rivals for 
leadership here and that rivalry only mirrors the greater absence of 
regional cooperation that we find here. Every security organization set 
up that involves Central Asia was initiated by an outside power or 
powers like the Russian-led Collective Security Treaty Organization 
(CSTO) or the Russian and Chinese-led Shanghai Cooperation Organization 
(SCO). But it is quite uncertain what degree those organizations can 
actively maintain security in Central Asia should a determined 
challenge emerge.
    And we should understand that sooner or later such a challenge will 
emerge, for example through a possible succession crisis, a highly 
plausible scenario. When Niyazov died the regional and Russian 
expectation was that such a crisis could break out leading to military 
conflicts. Thus a new crisis could evoke that same expectation or 
actually become a conflict and it is by no means clear how well 
prepared anyone is for such a contingency. The CSTO is a defense pact 
but it is hardly truly collective as Russia provides most of the troops 
and it is mainly an organization that can allow Russia to maintain 
bases in Central Asia. Although it claims it will not intervene in 
members' domestic affairs, it is quite possible that it is there 
precisely to quell local insurgencies or opposition movements since it 
is very doubtful that Russia could fight off a terrorist movement 
successfully based upon its utter failure in the North Caucasus or that 
it has the manpower and quality of forces needed to do so.
    Similarly the SCO is explicitly not a defense or hard security 
organization. Rather it is a means for regulating Russo-Chinese 
relations in Central Asia, resolving earlier border problems, working 
together to counter democratic ideas and the U.S. presence where it 
insists upon democratic reforms. It also is an organization that allows 
Central Asian states to voice their collective needs of a material 
nature in regard to security to both China and Russia and induce them 
to transfer resources to those governments to provide for such security 
as such actions are seen as being in everyone's common interest. Its 
cohesion is untested and Uzbekistan periodically breaks with the SCO 
and CSTO to insist upon going its own way. So its potential as a 
security provider is untested and probably limited. Thus all regional 
security mechanisms are untested and could easily turn out to be 
unreliable.
    This factor, on top of regional domestic problems listed above, is 
of considerable significance since it makes regional cooperation and 
conflict resolution much harder and such conflicts are already brewing. 
The states possessing energy deposits lack water and vice versa. 
Therefore water usage issues, particularly as many actors have 
continued disastrous Soviet environmental practices relating to water, 
irrigation, and the use of water for hydroelectric power have become a 
source of constant friction and could yet lead to conflicts among these 
states in the absence of any kind of regional or international 
supranational authority. We see this in the constant rivalries among 
Uzbekistan, Kyrgyzstan, and Tajikistan that have led to a breakdown of 
previously existing regional accords. But it also is the case that 
China and Russia have also pursued beggar-their-neighbor water policies 
relating to waters of importance to Central Asia that have or soon will 
have disastrous environmental impacts upon the region. As the issue of 
climate change and the melting of ice from the mountain ranges in 
Central Asia become more critical issues, those trends could even 
aggravate the already profound threats from the erosion of the Aral Sea 
and local rivers and the selfish and misguided water policies of states 
leading to conflict over basic issues of water and electricity. 
Arguably Central Asia is one of those regions where a war breaking out 
over resource and environmental issues is quite conceivable.
    All these issues should engage us because this region's importance 
is growing. This growing importance is not only due to the consequences 
of Afghanistan's war but also because of the significance its energy 
resources has for Europe and Asia. Moscow has shown that it will do 
whatever it can to keep these states from selling energy independently 
to Europe or at high prices to Russia. Moscow's openly neo-colonial 
policies here are crucial to maintaining its autocratic economic-
political system at home and frustrating reform of its own energy and 
overall economic policies and thus the political system. Those policies 
of controlling these states' pipelines and supporting their antiliberal 
regimes is equally crucial to the prospect of Moscow's preserving an 
exclusive sphere of influence here and of dominating European economies 
and politics by control over the provision of gas and to a lesser 
degree oil. Control over Central Asian energy and politics is critical 
to Russia's larger strategic goal of forestalling European integration 
along democratic lines both in Central and Eastern Europe and with 
regard to Georgia and Ukraine, and thus the Caucasus, if not Central 
Asia itself.
    Russia has made clear that while it talks a good game about 
cooperation in Afghanistan its government is not really ready to 
provide it, having allowed just one flight to date under the terms of 
its agreement with the administration. Otherwise its bureaucracy has 
obstructed all other attempts to get more flights going. Similarly, 
Moscow tried to bribe Kyrgyzstan and threaten it at the same time to 
kick the United States out of its air base at Manas, hardly signs of a 
desire for genuine cooperation. But Russia also wants to control 
Central Asia in order to prevent China from supplanting it as a 
customer for energy and/or a major economic power and security provider 
there. That effort goes on for despite the rhetoric of cooperation a 
Sino-Russian rivalry for influence continues there with Russia seeking 
to limit Central Asian states' ability to sell China energy directly 
through pipelines from the area built by them and China. However, 
Chinese economic power is proving to be too much for Russia under the 
conditions of the present crisis and Moscow even had to say it welcomed 
Chinese investment there. But we should also understand the magnitude 
of Chinese efforts here.
    To give a few examples, recently it lent members of the SCO $10 
billion and has also recently announced major energy and 
infrastructural initiatives in Kazakhstan, Turkmenistan, and 
Tajikistan. China granted Turkmenistan, $3 billion for developing a new 
gas deposit at Yuzhny Iolatan. China also announced its intention to 
invest over $1 billion in hydroelectric energy, power transmission, and 
transport projects in Tajikistan that will tie Tajikistan's 
infrastructure much closer to China. Finally, China's Export-Import 
Bank is lending the state-owned Development Bank of Kazakhstan $5 
billion, and CNPC is lending Kazmunaigaz, Kazakhstan's state-run gas 
company, another $5 billion. Moreover, China National Petroleum 
Corporation is buying a 49-percent minority holding in Kazakhstan's 
company AO MangistauMunaigaz from Kazmunaigaz National Co. And we can 
expect further deals of this magnitude.
    According to some members of U.S. nongovernmental organizations, 
China also told the Kyrgyz Government that if the United States did not 
offer it enough money to keep the Manas air base (now a transit center) 
open, China could furnish the money, demonstrating its willingness to 
play a broker's role and gain leverage with both Washington and 
Bishkek. These sources also quoted German diplomats who noted that 
China is now committed to truly big investment projects and will not 
invest in Central Asia for less than $5 billion. Neither do these deals 
exhaust China's ongoing and prospective investments in Central Asian 
energy and infrastructure.
    This capability flows directly from China's huge cash reserves and 
willingness to spend in a time of economic crisis to gain political 
leverage globally and not just in Central Asia. Since the United States 
will not invest such sums and in many cases, especially those tied to 
support of the war in Afghanistan, is legally debarred from doing so, 
and Russia will promise but not deliver the goods; China, who will 
deliver without strings concerning recipients' democratic credentials 
stands poised to reap an enormous geopolitical harvest in Central Asia.
              recommendations for the obama administration
    All of the aforementioned factors should normally impel the U.S. 
Government to regard this region as a whole as one of growing 
importance for the United States. But it appears that our interest 
remains almost exclusively focused on the Northern Distribution Network 
(NDN) through Central Asia that has been set up to relieve logistical 
pressure on our forces in Afghanistan near Pakistan. Of course, the 
establishment of the NDN has also led the Taliban to start moving north 
and attacking it, not surprisingly since so many of its successful 
attacks have been directed against our other logistical networks 
through the Khyber Pass. But those attacks against the NDN have 
contributed to mounting anxiety in Central Asia about the war spilling 
over into their territories and attacks by homegrown insurgents 
encouraged by, or otherwise supported by, the Taliban and al-Qaeda. Yet 
while we must defend the NDN we seem to have overlooked the importance 
of other issues in Central Asia. High-level visits do not occur unlike 
the case in Russia, China, etc. The administration has apparently opted 
to forgo public discussion of the region's democratic deficits as it 
has also done with Russia and China, in my opinion, a wrong decision 
even if it is an understandable one.
    Likewise, there does not seem to be any strong push by senior 
officials above the ambassadorial level to get Central Asian energy 
moving through Nabucco or other pipeline plans offered by the EU. Even 
if the EU and not the United States is the author of the Nabucco 
pipeline, surely the stakes involved here are such that we should be 
moving openly and vigorously to support it, line up financing for it, 
and convince Central Asian Governments to commit to it by giving them 
assurances that they will not suffer negative consequences for so 
doing. Also there is no public sign of awareness of the seriousness of 
the region's energy, water, and environmental issues or any truly 
strong push for enhanced U.S. trade and investment programs to counter 
the Russian and Chinese quests for lasting influence here. In other 
words our Afghanistan strategy appears to remain incomplete, an AfPak 
(Pakistan) strategy rather than an overall regional strategy that 
embraces the entire region and sees all of its dimensions in their true 
strategic importance.
    As I have previously written, Central Asian Governments' interest 
in maintaining the maximum amount of flexibility and independence in 
their foreign relations coincides neatly with both U.S. capabilities 
and interests. It obviously is in Washington's interest that its 
logistical rear in Afghanistan be stabilized especially at a time of 
prolonged economic hardship in the region and mounting conflict in 
Afghanistan. The intended supply road can and hopefully will provide a 
major boost to local economies by giving contracts to local companies 
and hopefully provide employment to some of the unemployed in these 
countries. But the Obama administration should not stop there. America, 
especially with European support, can leverage its superior economic 
power to regain a stronger position in the region and help prevent 
these embattled states from falling further prey to Russia and/or China 
who cannot compete at that level with the United States or with the 
United States and Europe together. In any case Russia's answers to 
Central Asian issues consists of maintaining the status quo against all 
changes, leaving these states as backward states dependent on their 
cash crop and with little or no possibility of cooperating amongst 
themselves. In other words, the Russian approach over time enhances 
their vulnerability to challenges stemming either from the Taliban, the 
global economic crisis, or a confluence of the two phenomena.
    Meanwhile the business community is playing a bigger role in 
Central Asian states besides Kazakhstan, the regional economic leader. 
And that role is going beyond energy investments. Although Washington 
cannot offer state-backed loans and elaborate project credits, as does 
Beijing, it supports WTO membership for all Central Asian states and 
has established a U.S.-Central Asia Trade and Investment Framework 
Agreement. Accordingly there is an opportunity here for the Obama 
administration to enlarge upon this foundation with a considerably 
larger and multidimensional program of trade, aid, and investment 
throughout Central Asia to accomplish the standing U.S. objectives of 
enhancing these states' economic independence, economic security, and 
opportunities for their independent participation in the global economy 
without a Russian or Chinese filter.
    Scholars have long realized that it is the construction of 
infrastructural projects that can overcome Central Asia's centuries-
long isolation from major international trade routes and provide not 
just lasting economic growth but also access to new possibilities for 
political action and integration, not just into regional blocs but into 
the wider global economy. Meanwhile, changes in transport facilities 
and communication devices that began in Soviet times and that have 
continued since then to the present are exercising a decisive influence 
upon emerging geostrategic and economic realities in Central Asia. 
Specifically the 19th century vision of an integrated network of rail 
lines connecting the former Soviet and Tsarist empires, Iran, India, 
and Europe is becoming a reality. Equally importantly market access 
varies inversely with transport cost. To the degree that Central Asian 
energy costs more to transport to world markets the less access it will 
have. But conversely to the extent that roads and other forms of 
travel, transport, and communication are built into Central Asia that 
lower the cost of transporting people, goods, and services it can be 
more integrated with the broader global economy. Surely such ideas lie 
behind various Russian and Chinese projects for such developments as 
well as the rivalry over pipelines to send Central Asian energy to 
Europe and Asia. Thus the NDN project falls squarely into that category 
of exemplary infrastructural projects that may serve purposes other 
than economic stability and global or regional integration but which 
ultimately can facilitate those objectives and outcomes. Therefore our 
investment policies should build upon the NDN to invest in further 
large-scale infrastructural projects to help develop the region, create 
jobs, generate progress, and advance regional economic integration.
    Beyond that, the necessity of supplying troops with large amounts 
of potable water suggests a second benefit from this road. Perhaps it 
can galvanize greater cooperation among Central Asian states, if not to 
increase the amount of water they consume, then at least to upgrade 
their quality for the benefit of all of its users. There is no doubt 
that water shortages are a real threat to the stability of some of 
these societies and a cause for unrest in them.
    Therefore such infrastructural and environmental projects could 
provide a spur for a much needed but still obstructed regional economic 
integration or at least enhanced cooperation. There is no doubt that at 
least some, if not all these states are receptive to the idea of 
greater cooperation against the Taliban. Shared participation in a 
major logistical project that brings mutual benefit while supporting 
the war effort could lead to spillovers that foster still more 
cooperation in other areas like water. While it is true that the U.S. 
budget is strained and has many claimants upon its resources, this is a 
region where relatively small sums given the totality of U.S. budgetary 
outlays could make a substantial geopolitical difference. Moreover, it 
might be possible to arrange matters so that the budget is not busted 
here while redirecting existing programs toward a more holistic and 
integrated, i.e., multidimensional understanding of regional security 
needs and thus toward greater effectiveness. Certainly neither Russia 
nor China could compete with a truly serious investment of U.S. 
resources and time here.
    But we should not think that we can do this on the cheap. The 
lessons of Manas are clear: If the United States seeks a policy 
position in Central Asia commensurate with the requirements of victory 
in Afghanistan then it will have to pay for it by investing the 
resources necessary to do the job. Otherwise its regional credibility 
will steadily diminish. We cannot pretend that a geopolitical struggle 
is not occurring in this increasingly critical region of the world. 
Since ``power projection activities are an input into the world 
order,'' Russian, European, Chinese, and American force deployments 
into Central Asia and the Caucasus and economic-political actions to 
gain access, influence and power there represent potentially 
competitive and profound, attempts at engendering a long-term 
restructuring of the regional strategic order.
                        specific recommendations
    Specifically the U.S. Government under President Obama should 
consider and act upon the following recommendations and policies in 
order to facilitate the aforementioned strategic goals of victory in 
Afghanistan and the enhanced independence of Central Asian states.

  <bullet> First it must continue the Bush administration's emphasis 
        upon regional integration of Central Asia with South and East 
        Asia in regard to energy electricity, and other commodities. 
        But it should also expand its horizons to foster greater U.S.-
        European cooperation so that these states can trade more openly 
        with Europe and the United States as well. Greater involvement 
        by the EU that parallels NATO involvement would therefore 
        contribute to this latter enhancement of existing U.S. 
        policies. And it should invest in capabilities that can help 
        overcome regional energy and water issues, perhaps by 
        encouraging Army Corps of Engineers and private engineering 
        firms to work in the region with local governments.
  <bullet> Second, it must build upon that foundation and conceive of 
        the road it now seeks to build for logistical purposes to 
        supply U.S. forces as also being a powerful engine for regional 
        economic development and integration. This aspect of the policy 
        called for here as part of the overall strategy for winning the 
        war in Afghanistan and stabilizing Central Asia must be a 
        multilateral project with as many local and other key partners 
        (NATO, Russia, and China) as possible.
  <bullet> Third, it must not detach the NDN from other parts of U.S. 
        policy. Instead the administration should see it as the 
        centerpiece of a coordinated policy and policy actions to 
        integrate together existing programs for trade, investment, and 
        infrastructural projects, particularly with regard to water 
        quality and increasing water supplies for all of Central Asia 
        in order to lay a better foundation for the lasting economic 
        and thus political security of Central Asian states, and 
        indirectly through such support, for their continuing economic-
        political independence and integration with Asia and the global 
        economy.
  <bullet> Fourth the United States should offer much more overt and 
        vigorous economic and political support to the Nabucco project 
        either with the EU or directly to Central Asian states who 
        might wish to take part in it in the form of investment, 
        exploration assistance, building pipelines, providing insurance 
        and financing, etc. A policy that neglects this has directly 
        negative repercussions in both Central Asia and Europe and only 
        strengthens a Russia that by both word and deed has indicated 
        its disinterest in genuinely serious policy cooperation in 
        Central Asia.
  <bullet> Fifth it must, at the same time, reform the interagency 
        process which was universally regarded as broken, in order to 
        pursue security in this region and in individual countries in a 
        holistic, multidimensional, and integrated way that enhances 
        all the elements of security, not just military security. While 
        we do not espouse any particular course of reform of the 
        interagency process, there are several points that can and 
        should be made here. First, the strategy and policy outlined 
        here is not purely or mainly military. Second, it therefore 
        should optimally not be led by the U.S. military but include 
        them under civilian leadership as an important, but not 
        dominating element in that strategy for Central Asia. While in 
        Afghanistan actual hostilities requiring a military strategy 
        are required, it is also accepted that an important component 
        of our policy and strategy there must be to improve governance 
        and economic conditions for the population. The overall 
        strategy must shun the previous procedures and lack of 
        integrated planning for both hard and soft power elements of 
        U.S. strategy in Afghanistan that has led to ``stovepipe 
        efforts that do not achieve full and efficient results and 
        effects in areas of operations.''
      Instead as one recent paper on the subject of reforming this 
        process notes, if the U.S. system is to address the ever 
        increasing level of complexity in providing security at home 
        and abroad, ``indeed if it is to operate as a system at all 
        rather than a collection of separate components--then security 
        reform must stress unity, integration, and inclusion across all 
        levels.'' And this new process must take a long-term view of 
        the problems with which it will grapple, especially in the 
        light of our own financial crisis. Within that call for reform 
        there are several common themes in recent works and statements 
        on this subject that emphasize as well the need for 
        multilateral support for such programs.
      Furthermore, in all our efforts, whether they are regional or 
        within a particular country, experience shows the absolute 
        inescapable necessity that the operation to provide such 
        multidimensional security must be organized along lines of 
        unity of command and unity of effort to succeed. Whether the 
        format is one of a country team led by the ambassador that 
        pulls all the strings of U.S. programs together or a Joint 
        Integrated Task Force (JIATF) is almost a secondary question. 
        The paramount need is for well-conceived plans that can be 
        implemented under the principle of this unity of command 
        leading to a unity of effort.
  <bullet> Sixth, a key component of an expanded, integrated, and 
        holistic approach to security in both Afghanistan and Central 
        Asia must entail a vigorous effort to combat narcotics 
        trafficking. This is not just because it is a scourge to both 
        Afghanistan, and the CIS, but also because it is clear that the 
        Afghan governments either incapable or unwilling to act and is 
        more concerned with blaming others for its deficiencies here. 
        Furthermore, such action will convince Central Asian states and 
        Russia that we take their security concerns seriously and 
        facilitate their cooperation with our policy and strategy.
                              conclusions
    Arguably it is only on the basis of such an integrated 
multidimensional and multilateral program that a strategy to secure 
Central Asia against the ravages of economic crisis and war can be 
built while we also seek to prosecute the war in Afghanistan in a 
similarly holistic way. It has long since been a critical point or 
points in U.S. policy for Central Asia that we seek to advance these 
states' independence, security, and integration both at a regional 
level and with the global economy. U.S. experts and scholars have also 
argued for such a perspective as well. Thus the NDN project could and 
probably should serve as the centerpiece of a renewed American economic 
strategy to help Central Asia fight off the Taliban and cope 
simultaneously with the global economic crisis. An integrated program 
of economic and military action in Central Asia is surely called for 
given the scope of our growing involvement and the stakes involved in a 
region whose strategic importance is, by all accounts, steadily 
growing. Especially as we are now increasing our troop commitment to 
Afghanistan and building this new supply road, challenge and 
opportunity are coming together to suggest a more enduring basis for a 
lasting U.S. contribution to Central Asia's long-term security. In 
effect the present crisis has brought matters to the point where the 
United States has obtained a second chance in Central Asia even as it 
is becoming more important in world affairs. It is rare that states get 
a second chance in world politics. But when the opportunity knocks 
somebody should be at home to answer the door.

    Senator Casey. Dr. Blank, thank you very much.
    You're both very good on time. We appreciate it. You'll be 
invited back, for several reasons.
    I'll start, and I know we're limited on time, but I'll 
start just with one broad question, and then I want to make 
sure that Senator Shaheen has a chance to ask questions. She's 
a faithful attendee at all of the committee hearings, but also 
at subcommittee hearings, as well. We're grateful she's here.
    Dr. Blank, I wanted to focus on an issue that we're all 
concerned about in different parts of the world, but especially 
as we go forward with the President's new strategy in 
Afghanistan, and that's Islamic extremism. In particular, I was 
struck by a line--as well as many parts of your testimony, but 
one in particular on the fourth page of your testimony--you 
say, and I quote, ``This lethal cocktail of security challenges 
offers the Taliban and al-Qaeda numerous opportunities for 
recruitment, especially as Islam is the only credible language 
of sociopolitical expression if all others are repressed.'' In 
light of that statement, as well as others you've made, and in 
light of the obvious threat that Islamic extremism plays in 
this region and around the world, what do you think our 
strategy should be, going forward, and what are your greatest 
concerns about that threat?
    Dr. Blank. I think that we need to find more creative ways, 
as Dr. Olcott suggested, to make clear our enduring interest in 
democracy. I would tie it to the fact that all of these states 
are signatories of the final act, which gives us an 
international legal platform to say that, ``You have all signed 
the Helsinki Accords and therefore, you know, we feel that, if 
you signed this treaty, you should be held to account, just as 
we should be, and are.'' But, beyond that that, therefore, 
there needs to be a commensurate investment by the United 
States in the economies of these countries, in order to 
strengthen their economies and create social and economic 
conditions which will foster internal and indigenous autonomous 
political participation by groups.
    I mean, one of the, sort of, eternal truths of political 
science is that, to the extent that economic prosperity 
develops in a country, more and more citizens and social groups 
form to advance political and social interests that they have. 
Now, it's a long-term process; it doesn't happen in 1 year or 5 
years. But, it's a process that would over time help to 
stabilize the situation.
    In many of these states--for example, in Tajikistan and 
Kyrgyzstan--we face the possibility of these states being 
failing states, and particularly if there should be a 
succession crisis which deprives the government of its ability 
to lead at a crucial moment.
    We have an instrument to foster investment on a large scale 
through the Northern Distribution Network and accompanying 
infrastructural projects associated with it. Now, if we were to 
use those--that lever--or those levers--to craft out of that an 
eco-
nomic strategy to increase investment and create jobs, so that 
migrants don't have to go to Russia and return when conditions 
in Russia deteriorate or face racially motivated attacks 
against them, as is increasingly the case in Russia, then we 
would be able to strengthen those economies and give them a 
more solid economic basis for security at home and greater 
economic independence abroad.
    There are economic mechanisms available; there are 
investment mechanisms through the Asian Development Bank and 
other international financial institutions, as well as through 
American private investment. And we need to push all of those. 
And we also need to push American investment in energy in these 
states, along with our European allies, through the Nabucco 
pipeline so that energy-holding states will not be afraid to 
invest in such a pipeline, for fear of retaliation. They will 
have diversified alternative means of economic independence and 
growth, because that's the only long-term basis on which you 
can build a truly secure foundation for democracy, and an 
alternative to Islam. If we're going to promote an alternative 
to Islam, we have to show that it works.
    Senator Casey. I'll move to Senator Shaheen. But, Dr. 
Olcott, do you want to add anything to that before we move on?
    Dr. Olcott. Thank you. I think that it's important not to 
exaggerate the threat that Islamic extremism poses in these 
countries. There's a clear return to Islam in all these places. 
I think Islamic extremism is something we face everywhere, now, 
as a risk.
    The key, though, is enhancing the capacity of these states 
to deal with situations on their borders. And, for me at least, 
as somebody who's been traveling to the area for 30-some-odd 
years already, I think we really have to be concerned, as I say 
in my testimony, about the risks to secularism being 
transformed or simply not going into the next generation. That, 
I think, has to be one of our focuses. As think about 
democracy, we have to be aware of how different these states 
have become over the 20 years since independence. And our 
tactics and strategies have to reflect that.
    Education--and relating to Steve's point about migrants--I 
think that there has to be more job creation. I think we also 
can't overestimate what we're going to do with the money we are 
now spending--for example, in relation to the Northern 
Distribution Network is not--if we're going to be out of there 
in 2, 3, or 4 years, by itself, it's not going to create enough 
economic opportunities to transform these economies.
    So, I think, again, the administration should be held to 
having some sort of new strategy, and it should be something 
that is implementable, and it should be something that takes 
U.S. intellectual capacity and puts the United States in 
driver's seat, working with other international actors, to have 
a more coherent view of what it takes to get these weaker 
states to become stronger.
    But, Islam is going to be part of the picture. I think the 
key is that we have to strengthen secular society. And I agree 
entirely with Steve--economic stakeholders, in my opinion, are 
what makes these systems more democratic; it creates in-country 
supporters for rule of law.
    Senator Casey. Thank you very much.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. It's nice to be 
here this morning.
    I'm sorry I missed the first panel, so I may have missed 
some of the comments, relative to some of my questions.
    But, Dr. Blank, I want to go back to your talking about the 
human rights and extremism, because Kazakhstan, as has been 
pointed out, is about the take over the chair of the OSCE, and 
this provides us an opportunity to try and encourage them in 
the area of doing more to address some of its potential reforms 
in the country. Are we doing anything, or the European 
community doing anything, to encourage them to make some 
positive moves on human rights and freeing up more internal 
discussion within the country before it takes over the 
chairmanship?
    Dr. Blank. I believe that we are doing things. I--actually, 
I was a member of a task force that were--actually participated 
in drafting an analysis of this issue, and there was meetings--
there were meetings in Astana in October, and there was the 
Annual Review Conference in Warsaw in September, where the 
United States participated.
    So, we are doing things, but I suspect we're not doing 
things in public, which I think is effective when it's combined 
with private representation, because Kazakhstan made all sorts 
of promises, in 2007 at the Madrid conference, as to what it 
would do once it became chairman of the OSCE, since it's the 
first non-European state to hold that position, and the 
promises have not been kept. The Internet law, the media law, 
the Zhovtis affair that Dr. Olcott referred to, where a leading 
human rights activist found himself in a tragic situation 
because he hit somebody with his car while he was driving, and 
killed him, and then was then sentenced to a much greater time 
than, say, inadvertent vehicular homicide would normally have 
brought--these kinds of things, the use of the criminal courts 
to criminalize political and business differences--all these 
phenomena are going on in violation of the promises made at 
Madrid. So, there needs to be both private representations made 
to Kazakhstan and public representations made to Kazakhstan. 
And also, I think, since the government in Astana is eager to 
hold an OSCE summit for 2010, that the human rights issue must 
be squarely addressed and at the forefront of this summit, 
because it would make no sense for heads of state to travel to 
a faraway place, whether it be Astana or Helsinki, in--with the 
35th anniversary of the Accord, if the chairman of the OSCE is 
not living up to its promises with regard to human rights and 
security.
    Senator Shaheen. Would you go as far as to suggest that 
they shouldn't take over the chairmanship?
    Dr. Blank. Well, it's far too late to make that kind of 
suggestion. That horse left the barn at Madrid, 3 years ago. 
There's no way you could deprive Kazakhstan of the 
chairmanship, and I think it would be foolish and futile to 
try, at this stage, to say so. I think what you need to do, 
though, is to hold them to account. We, as a leading democracy 
in the world, are held to account every day, in the world 
media, for our shortcomings. It used to be civil rights 40 
years ago; it's Guantanamo today, or other kinds of things. The 
Government of Kazakhstan is a mature, enlightened government. 
They have exceptional political leadership. They understand the 
issues involved, and there's no reason why they should be 
exempt from that kind of criticism, based on their past 
promises, and based on the fact that they've signed the 
Helsinki Accords and promised to be bound by them.
    Senator Shaheen. Thank you.
    Dr. Olcott, I was particularly interested in your 
testimony, because you talked about education, something that 
we don't often hear here, surprisingly enough. And I happen to 
agree that education is one of the best ways in which we move 
countries toward democracy and help them, assuming that it's 
education that is available to all and is not biased in favor 
of fundamentalism. And I'm curious, because, as I think about 
this part of the world and its former domination by the Soviet 
Union, I would have thought that education would have been 
engrained as part of that, and that that would be a part of the 
society. Has that changed since they have left the Soviet bloc? 
And what are the forces that are driving that? And are we 
seeing an occurrence of the madrassas that we've seen in other 
parts Central Asia?
    Dr. Olcott. Thank you for the question.
    The situation in Central Asia is distinct from other newly 
independent areas. These countries started with virtually 100 
percent literacy. The challenge now is to maintain the quality 
of education, especially in rural areas. And that's one that 
none of these governments has had enough resources to do. 
Kazakhstan's done a much better job than everybody else. But, 
in all the other cases, it's very uneven.
    Turkmenistan is a separate case, because the higher 
education institutions were closed, effectively, at the last 
years of Niyazov's life, and now they're being open. So, they 
have particular challenges.
    But, everywhere else what's happened is--especially in the 
poor countries--as it's gotten more expensive to heat schools, 
to repair schools, it's been hard to keep teachers, that the 
percent of kids going to school has begun to drop, especially 
in Kyrgyzstan and Tajikistan and the rural areas. And the 
electricity shortage means that schools have no electricity, in 
most rural areas in those two countries, from October until 
almost May. Imagine sending your kid to walk 2 miles each way, 
to sit in an unheated school that has no electricity.
    So, the challenges of maintaining a highly educated 
population are really ones that these countries are going to 
have trouble meeting entirely on their own.
    Specialized technical education, which was a great boon of 
the Soviet system, has also almost entirely died out in much of 
the region. So, technical expertise is beginning to decline. 
I'm not against people going to Russia to work at all. I think 
migration is a great way to enhance economic recovery of places 
that have excess labor, if your neighbor has labor shortages. 
But, the whole question of having technical training is where, 
again, EU and the United States can be a help, is really 
critical. So, the opportunities of growing a new generation 
that has basic skills--women's education is only a family 
challenge; there's no access denial for women--and specialized 
technical education, so people can get--have jobs, both at home 
and in Russia, where there's a huge labor shortage, I think are 
really critical things and could be building blocks in any move 
to a more democratic next generation.
    Senator Shaheen. Thank you.
    My time is up, Mr. Chairman.
    Senator Casey. Thank you, Senator Shaheen.
    That may have to be our last word. I have to go, and I know 
that we're trying to get close to keeping this to the hour, 
unfortunately. We could spend, not just another 20 minutes, but 
another 20 hours.
    But, we're grateful, Dr. Olcott, for your testimony, and 
Dr. Blank, for yours, as well.
    And we will be submitting questions for the record, which 
will be further development of these issues, and more of an 
opportunity for you to give us the benefit of your expertise.
    And I'd love to get together again and talk more about the 
strategy, going forward, in terms of what the administration's 
doing. I think it's important, especially as we're coming to 
the end of a new administration, that we try to do everything 
we can to get this right.
    Thanks very much.
    The hearing's adjourned.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Responses of Deputy Assistant Secretary George Krol to Questions 
                   Submitted by Senator John F. Kerry

    Question. Stability and Extremism.--In your written testimony, you 
wrote that one of the five main policy priorities is to ``expand 
cooperation with Central Asian states to assist coalition efforts to 
defeat extremists in Afghanistan and Pakistan and bring stability and 
prosperity to the region.''
    On December 17, the Washington Post published an article describing 
how Tajikistan has become the ``front line between the [Taliban] 
insurgency and Central Asia'' as the Taliban advance north into Kunduz. 
According to this article, more than 3,600 Afghan refugees have fled to 
Tajikistan since January 2008, and ``security forces in Tajikistan, 
Uzbekistan, and Kyrgyzstan have reported clashes with Islamist 
terrorists, opposition warlords, and drug traffickers in Afghanistan.'' 
There seems to be a tension between our ongoing efforts to defeat 
extremists in Afghanistan and the destabilizing effect it has on 
Central Asia.

  <bullet> As the administration's efforts to defeat extremists in 
        Afghanistan and Pakistan continue, are the Taliban and/or other 
        extremist groups moving north into Central Asian countries? If 
        so, please describe.

    Answer. We are concerned about possible relocations of extremists 
to Central Asia as efforts to defeat them in Afghanistan and Pakistan 
prove successful. In Central Asia, the United States provides a range 
of security-related assistance, including programs focused on 
strengthening border security. Improved border security will minimize 
the chances of extremist groups moving north from Afghanistan. In 
addition, U.S. assistance programs promote stability by fostering 
economic growth. We are engaged with the countries of Central Asia on 
strategies to diversify economies and ensure sustainable growth, 
including programs to improve business practices, particularly in 
agriculture, and promote economic reform.
    Regarding Afghan refugees in Tajikistan, the State Department and 
the U.S. Embassy in Dushanbe are monitoring closely the situation, and 
we do not anticipate that the increase in the number of asylum seekers 
from Afghanistan will threaten Tajikistan's social and political 
stability. The Office of the United Nations High Commissioner for 
Refugees (UNHCR) has provided the Tajik Government training and 
technical assistance to register and protect asylum seekers and 
refugees, and UNHCR provides assistance directly to refugees. In 2009, 
the U.S. Government, through the State Department's Bureau for 
Population, Refugees, and Migration, contributed $1.2 million to UNHCR 
for programs in Central Asia and awarded grants to renovate several 
schools in mixed Tajik-Afghan refugee communities and to increase the 
capacity of a hospital to serve Afghan refugees.

    Question. Does the administration have a strategy to help defeat 
extremist groups in Central Asia that flee Afghanistan and Pakistan? If 
so, please describe.

    Answer. The United States continues to provide considerable 
security-related assistance to the countries of Central Asia. Programs 
focus on border security, counternarcotics, and counterterrorism, 
including training for security and border personnel, provision of 
equipment, and investment in infrastructure such as modern border 
posts. In addition, the U.S. Government has extensive assistance 
programs in Central Asia that promote stability by helping the 
countries to address conditions of poverty that could create an 
environment conducive to development of extremism. USAID has programs 
which help strengthen the region's energy markets, promote agriculture 
and trade, and implement economic reform--all of which is aimed at 
improving economic growth. We also assist the Central Asian states with 
programs that ``invest in people'' by improving the quality of and 
access to basic education and protecting human health.

    Question. Is there a destabilizing effect for countries in Central 
Asia from our policies to defeat extremists in Afghanistan and 
Pakistan? If so, please explain.

    Answer. No. Each of the countries of Central Asia has a strong 
interest in seeing extremists in Afghanistan and Pakistan defeated, and 
each of the countries has provided significant assistance to coalition 
efforts to bring stability and redevelopment to Afghanistan. Assistance 
from Central Asia ranges from supplying electricity to Kabul, to 
providing food and medicine, to building schools and hospitals. We also 
rely on our Central Asian partners and Russia to move coalition 
military supplies through the region to Afghanistan.

    Question. Please clarify how the administration will help support 
stability in Central Asia? What type of assistance will the United 
States extend to Central Asian states?

    Answer. The United States supports development and stability in 
Central Asia through a full range of assistance programs, including 
programs focused on promoting economic growth, quality health care, 
advancing respect for human rights, strengthening border security, 
counternarcotics, and developing democratic institutions. In addition, 
for FY 2010 the United States will initiate assistance programs to 
address food insecurity in Tajikistan and Kyrgyzstan by increasing 
agricultural productivity, bolstering farmers' incomes, and reforming 
unfair land regulations.

    Question. Please explain how the Obama administration's approach to 
Central Asia differs from that pursued by the Bush administration.

    Answer. The Obama administration has begun a systematic effort to 
elevate, enhance, and energize our dialogue with the countries of 
Central Asia. We seek to work with the governments and people of 
Central Asia to promote stability, prosperity, security, and economic 
and political modernization. We aim to do so with a focus on mutual 
interests, building on common ground wherever it exists, but not shying 
away from dealing plainly with our differences. To promote stronger 
ties and practical cooperation, we have launched an effort to construct 
high-level bilateral mechanisms with each Central Asian country. Led by 
Assistant Secretary of State Robert O. Blake, Jr., these ``Annual 
Bilateral Consultations'' will feature a structured dialogue to address 
the full range of bilateral issues.

    Question. Northern Distribution Network.--During his testimony, Dr. 
Stephen Blank of the Army War College's Strategic Studies Institute 
said that while the United States has a strategy for the Northern 
Distribution Network (NDN), ``there is no strategy for [Central Asia] 
that ties together . . . Afghanistan and [domestic] issues, and no 
commensurate investment of U.S. resources, either private or public, in 
these states to the degree that it is growing.''
    Please respond to this comment.

    Answer. The Northern Distribution Network (NDN) is part of an 
overall strategy to support efforts in Afghanistan, and expanding 
cooperation with the Central Asia states to support efforts in 
Afghanistan is part of our overall strategy for Central Asia. Our 
Central Asia strategy includes other integrated priorities: we seek to 
promote development and diversification of the region's energy 
resources; we are working to encourage greater political liberalization 
and respect for human rights; we aim to help develop competitive market 
economies and promote economic reforms; and, we seek to address 
problems of poverty and food security. These issues are interconnected, 
and progress in one area can help reinforce progress in another area.
    The administration requested, and Congress appropriated, a 
significantly increased level of development and security assistance 
resources for Central Asia in FY 2010.

    Question. The administration will need to increasingly rely on 
Central Asian states for military supply routes for our efforts in 
Afghanistan. How will the administration balance U.S. interests in 
Afghanistan that increasingly rely on authoritarian and repressive 
Central Asian states with the administration's stated goals of 
encouraging political liberalization and respect for human rights?

    Answer. We can and are pursuing both of our objectives to promote 
stability and development in Afghanistan as well as to encourage 
greater political liberalization and respect for human rights in 
Central Asia. The Annual Bilateral Consultation framework gives us a 
new mechanism to address the full range of bilateral issues with each 
of the countries of Central Asia.
    Each of the consultations covers interconnected issues, such as 
energy, economic and political modernization, security, and people-to-
people contacts. We aim to make progress in our relations with the 
countries of Central Asia in all of these areas. We understand that 
positive steps in one area can reinforce forward movement in others. 
For example, sound energy policies contribute to long-term prosperity, 
which is also underpinned by strengthening the rule of law. Healthier 
and more prosperous societies are better able to sustain their own 
security, and contribute to regional security--just as security against 
violent extremist groups buys space for the development of modern 
economic and political institutions. And increasing people-to-people 
exchanges will highlight that enduring relationships are not only about 
connections between governments, but also about connections between 
individuals and societies.

    Question. Tajikistan.--Please describe the latest status of State 
Department efforts to bring Peace Corps to Tajikistan.

    Answer. The State Department recently met with officials in the 
Government of Tajikistan and Peace Corps to discuss the prospect of 
bringing Peace Corps to Tajikistan. The Government of Tajikistan is 
currently considering whether to ask the United States to prioritize 
startup of a new Peace Corps Program in Tajikistan.

    Question. English Language and Educational Exchanges.--Does the 
State Department have a strategy to invest in English language programs 
in Central Asia? If so, please describe, including the amount of money 
we have spent and will spend for FY 2010.

    Answer. The State Department has an effective and well-coordinated 
continuing strategy to promote English language programs and improve 
the competency of teachers of English in the five nations of Central 
Asia. This strategy relies on a network of specialists in the United 
States, Central Asia, and elsewhere in the region.
    The Public Affairs Officer in each U.S. Embassy coordinates closely 
with other American diplomatic and local staff members on a range of 
English language programs. A Regional English Language Officer based in 
Astana, Kazakhstan, advises posts in the region about English language 
programming. There is also typically at least one Foreign Service 
National (FSN) employee in each embassy dedicated to promoting English 
language initiatives that assist teachers of English in the host 
nation.
    In Washington, the Office of English Language Programs in the 
Bureau of Educational and Cultural Affairs coordinates daily with U.S. 
diplomats in Central Asia in efforts to engage English language 
professionals and students abroad by teaching English, supporting U.S. 
Embassy-sponsored English language programs, developing curricula and 
materials, facilitating teacher-training workshops, and consulting with 
Foreign Ministries of education, universities, and NGOs.
    Following are key elements and individuals in support of English 
language initiatives in Central Asia. FY 2008 funding for activities in 
Central Asia is included for reference. FY 2009 funding data are not 
yet finalized but should be available in the next month. FY 2010 
program figures are not yet available.
Regional English Language Officers (RELOs)
    Regional English Language Officers (RELOs) organize and participate 
in teacher-training seminars and workshops, advise posts on questions 
pertaining to English teaching, conduct needs assessments, and offer 
guidance on all aspects of an academic program. RELOs consult with 
host-country ministry, university, and teacher-training officials, as 
well as lecture and present workshops on English as a Foreign Language 
(EFL) methodology and practices. RELOs work closely with English 
Language Specialists, English Language Fellows, and U.S. Embassy-
related English Language Programs.
    FY 2008 Funding: $341,000.
The English Language (EL) Fellows Program
    The EL Fellow Program sends talented, highly qualified U.S. 
educators in the field of Teaching English to Speakers of Other 
Languages (TESOL) on 10-month fellowships to overseas academic 
institutions in all regions of the world. The Program promotes English 
language learning and enhances English teaching capacity abroad. 
Through U.S. Embassy projects, Fellows share their expertise, hone 
their skills, gain international experience, and learn other cultures.
    FY 2008 Funding: $420,000.
The English Language (EL) Specialist Program
    The English Language (EL) Specialist Program recruits U.S. 
academics in the field of Teaching of English as a Foreign Language and 
Applied Linguistics to support U.S. Embassy short-term (2-to-4-week) 
projects abroad. Project topics may include curriculum design and 
evaluation, teacher training, textbook development, or English for 
Specific Purposes.
    FY 2008 Funding: $37,072.
English Access Microscholarship Program
    The ``Access'' program provides a foundation of English language 
skills to talented 14-to-18-year-old students from disadvantaged 
sectors through after-school classes and intensive summer learning 
activities in countries worldwide. Students' improved English language 
skills lead to greater mutual understanding, better job and educational 
opportunities and the ability to compete for and participate in 
exchanges in the United States. Students gain insights into U.S. 
culture from American educational materials and an emphasis on active 
learning. ``Access'' is the first step in ECA's continuum of 
educational and exchange opportunities to reach disadvantaged young 
people around the world.
     FY 2008 Funding: $283,726.
The ``E-Teacher'' Scholarship Program
    Under the E-Teacher Scholarship Program, five distance education 
courses are conducted by U.S. universities for foreign English language 
teachers nominated by U.S. embassies. Courses have included ``Teaching 
Critical Thinking,'' ``Assessment for English as a Foreign Language,'' 
``Teaching English to Young Learners,'' ``English for Business'' and 
``English for Law.''
    FY 2008 Funding: $34,972.
English Language Programs Materials
    ECA's English Language Programs Materials Branch provides a variety 
of specialized materials to aid in the teaching and study of English. 
They include ``English Teaching Forum,'' a quarterly, peer-reviewed 
journal for teachers of English as a foreign language that has been 
published since 1962. Over 77,000 copies of the journal are distributed 
each year by U.S. embassies in more than 100 countries.
    In addition, more than 80 titles of English language materials for 
teachers and learners are available in multiple formats: print, video, 
audio, and online. New materials include the innovative ``Shaping the 
Way We Teach English,'' a 14-part teacher-training video series, and 
``Celebrate! Holidays in the U.S.A.,'' a full-color reference text 
describing 24 U.S. holidays and celebrations.
    Online Resources for English Language Teachers, including journals 
and magazines, online publications, reference materials, and English 
Teaching Forum magazine are available on the Office of English Language 
Programs' Web site: www.englishprograms.state.gov.
English Language Instruction via TV in Turkmenistan
    An innovative English Language instruction program was initiated by 
the U.S. Embassy's Public Affairs Section in Turkmenistan. Embassy 
Ashgabat worked with a local TV station to develop an introductory 
English language learning program for a Turkmen audience. Through a 
grant and collaboration with a local television station, the Embassy 
produced 23 thirty-minute episodes of ``Salam Dostlar'' (``Hello 
Friends''). The program was broadcast during prime time on 
Turkmenistan's Channel 4 TV once a week. The Embassy issued a grant for 
$13,340 to cover the filming, production, DVD production, and fees to 
the local TV studios. That price tag, however, doesn't reflect the true 
costs of the program, because U.S. Embassy staff wrote the scripts, 
starred in the shows, and worked tirelessly to get the TV studio to 
broadcast the programming.
    FY 2008 Funding: $13,340.
Training of English Language Instructors in Hyderabad
    Two programs for teachers of English in Central Asia are provided 
under separate U.S. grants to The English and Foreign Languages 
University (EFLU) in Hyderabad, India, and the American University of 
Central Asia (AUCA).
    Under the first grant English teachers from Central Asia travel to 
the Hyderabad institute to improve their language skills and learn 
updated teaching techniques. Under the second grant, specialists from 
Hyderabad will travel to AUCA in Bishkek, Kyrgyzstan, to conduct 
English classes for AUCA faculty to enable them to improve their 
English speaking competency.
    Funding: First grant (phase 1 and 2; 4 years total) EFLU: $681,430. 
Second Grant EFLU and AUCA: $350,000. (Program will commence in FY 2010 
using FY 2009 Funds).

    Question. What types of educational exchange programs do we have in 
Central Asia? Please describe the different programs, the number of 
students involved, and how much money we spend on these programs. Which 
programs are the most effective? Which programs are the least 
effective?

    Answer. The Department of State sponsors a wide range of 
educational exchange programs for teenagers and adults in the five 
countries of Central Asia: Kazakhstan, Kyrgyzstan, Uzbekistan, 
Tajikistan, and Turkmenistan.
    Below are descriptions of Department of State-sponsored educational 
exchange programs with the FY 2008 amounts spent on each and the 
approximate number of participants in each program. Each program model 
has its unique target audience and all are models that have proven 
effective worldwide and in the region. Also included is the 
International Visitor Leadership Program (IVLP). Although not strictly 
defined as an educational exchange program, IVLP is an important 
component of U.S. exchange initiatives in Central Asia.
Future Leaders Exchange (FLEX) Program
    The FLEX Program provides opportunities for high school students 
(ages 15-17) to spend a year in the United States, living with a host 
family and attending an American high school. The FLEX Program was 
established in 1992, under the FREEDOM Support Act. Program 
participants learn about the United States firsthand by participating 
in family life, school study, and extracurricular activities. They take 
part in activities in their local communities and have the opportunity 
to share their own culture with Americans.
    FY 2008 Funding: $4,518,673.
    FY 2008 Participants: 291.
Edmund S. Muskie Graduate Fellowship Program
    The Muskie grant program provides opportunities for Eurasian 
graduate students and professionals for 1-year nondegree, 1-year 
degree, or 2-year degree study in the United States. Eligible fields of 
study are: business administration, economics, education, environmental 
management, international affairs, journalism and mass communication, 
law, library and information science, public administration, public 
health, and public policy.
    FY 2008 Funding: $2,931,000.
    FY 2008 Participants: 50.
Hubert H. Humphrey Fellowship Program
    Founded in 1978 in honor of the late Senator and Vice President, 
the Hubert H. Humphrey Fellowship Program brings mid-career 
professionals from developing and transitioning countries to the United 
States for 1-year nondegree programs that combine graduate-level 
academic work with substantive professional affiliations.
    FY 2008 Funding: $555,960.
    FY 2008 Participants: 8.
Junior Faculty Development Program
    This program provides 1-year fellowships in the United States for 
early-career university faculty from Eurasia to develop curricula, 
acquire new teaching skills and to upgrade knowledge in specific 
fields.
    FY 2008 Funding: $402,793.
    FY 2008 Participants: 19.
Fulbright Program
    Created in 1946, Fulbright is the flagship international 
educational exchange program sponsored by the U.S. Government. The 
program provides opportunities for Americans and citizens of more than 
155 countries, who are chosen for their academic achievement and 
leadership potential, to study, teach or conduct research abroad and 
develop ties that build mutual understanding.
    FY 2008 Funding (Scholars and Students, U.S. and Foreign): 
$1,677,304.
    FY 2008 Participants (Scholars and Students, U.S. and Foreign): 46.
Study of the U.S. Institutes for Scholars
    Scholar Institutes are designed to strengthen curricula and improve 
the quality of teaching about the United States overseas. These 
Institutes host multinational groups of university faculty or secondary 
school educators. Each institute is thematically focused on a field or 
topic of U.S. studies. Participants interact with American scholars, 
meet with experts in their disciplines, visit civic institutions, and 
explore the diversity and culture of the United States. Scholar 
Institutes typically take place during the months of June, July, and 
August, with the exception of U.S. National Security which occurs in 
January and February.
    FY 2008 Funding: $137,004.
    FY 2008 Participants: 8.
Teaching Excellence and Achievement Program
    The Teaching Excellence and Achievement Program (TEA) brings 
secondary teachers of English as a Foreign Language from Central Asia 
and other world regions to the United States for 6-week institutes at 
university schools of education to further develop their subject area 
expertise and enhance their teaching skills. U.S. teachers make 2-week 
reciprocal visits to these regions to strengthen linkages between U.S. 
and foreign schools.
    FY 2008 Funding: $408,000.
    FY 2008 Participants: 28.
Critical Language Scholarship (CLS) Program
    The CLS Program provides fully funded, group-based intensive 
language instruction and structured cultural enrichment experiences for 
7 to 10 weeks for U.S. citizen undergraduate, Master's and Ph.D. 
students. The CLS Program is part of a U.S. Government interagency 
effort to expand dramatically the number of Americans studying and 
mastering critical-need foreign languages.
    FY 2008 Funding: $273,765.
    FY 2008 Participants: 15.
Global Undergraduate Exchange Program
    The Global Undergraduate Exchange Program offers scholarships for a 
semester or a full academic year of nondegree study in the United 
States to undergraduate emerging student leaders from underrepresented 
sectors of selected countries in different world regions. The program 
also includes community service activities and internships.
    FY 2008 Funding: $1,498,553.
    FY 2008 Participants: 50.
Global Connections and Exchange (GCE)
    Through linkages between overseas and U.S. schools, the Global 
Connections and Exchange Program offers teachers and students 
specialized training and facilitation for interactive online projects 
to enhance educational transformation, English acquisition, computer 
literacy and access to resources within a student-centered learning 
environment. Projects are currently being conducted in the Middle East/
North Africa, South and Central Asia, and the Caucasus. The program 
currently provides travel to the United States by a small number of 
teachers from Central Asia.
    FY 2008 Funding: $304,978.
    FY 2008 Participants: Hundreds of students receive GCE training in 
Central Asia; 3 Central Asian teachers travel to the U.S.; 10 Americans 
travel to Central Asia.
FORTUNE/State Department Global Women's Mentoring Partnership
    Launched in 2006, this program provides approximately 35 emerging 
women leaders from around the world with the opportunity to develop 
their leadership, management and business skills while gaining 
experience in the U.S. business and nonprofit environments, where they 
are mentored by FORTUNE's Most Powerful Women leaders. Project 
activities include a 3-4-day orientation program in Washington, DC, a 
mentorship assignment for approximately 3 weeks at a U.S. host company, 
and a final wrap-up session in New York City.
    FY 2008 Funding: $5,714.
    FY 2008 Participant: 1.
International Visitor Leadership Program (IVLP)
    The IVLP brings established or potential foreign opinion-makers to 
the United States for 2-to-3-week programs to gain firsthand knowledge 
about U.S. policies, politics, society and culture through carefully 
designed visits that reflect the participants' professional interests 
and support U.S. foreign policy goals. Participants are selected by 
U.S. embassies. The programs are established for next generation 
foreign leaders in government, politics, media, education, the arts, 
science, labor relations and other key fields.
    FY 2008 Funding: $2,466,150.
    FY 2008 Participants: 118.
National Security Language Initiative for Youth (NSLI-Y)
    NSLI-Y is part of a multiagency U.S. Government initiative launched 
in January 2006 to improve Americans' ability to engage with people 
from around the world who speak Arabic, Chinese, Hindi, Korean, Farsi, 
Russian, and Turkish. Through NSLI-Y, U.S. citizens, ages 15-18, 
receive full merit-based scholarships to participate in summer, 
semester, and academic-year language programs in countries where the 
seven NSLI-Y languages are spoken. While on the program, participants 
are immersed in the cultural life of the host country to afford them 
invaluable formal and informal language practice and to spark a 
lifetime interest in foreign languages and cultures. In Tajikistan, 
students have the opportunity take part in a summer program to study 
Farsi.
    FY 2008 Funding: $201,825.
    FY 2008 Participants: 15.
                                 ______
                                 

   Responses of Deputy Assistant Secretary George Krol to Questions 
                   Submitted by Senator Robert Casey

    Question (a). Northern Distribution Network.--The Northern 
Distribution Network (NDN) provides an opportunity for local economic 
development and regional cooperation.

  <bullet> Ambassador Krol, does USAID have enough resources, both in 
        terms of staff and funding, to support initiatives along the 
        Northern Distribution Network (NDN)?

    Answer. We believe the current resource levels should be sufficient 
to fund our priorities in Central Asia including programs to facilitate 
Defense Department local procurement. Existing USG assistance projects 
in all five Central Asian countries will help build capacity of local 
businesses and producers so that the U.S. military can procure local 
goods along the NDN. Current USAID programs focus on working with 
governments to promote commercial law reform, customs reform and fiscal 
management in Kazakhstan, Kyrgyzstan, Tajikistan, and to some extent in 
Turkmenistan. Programs also encourage producers to provide agricultural 
inputs and strengthen market chains for agricultural products in 
Uzbekistan. A similar program will begin soon in Tajikistan. Other USG 
projects are working to help define a course toward improvement of 
transportation infrastructure and to reduce trade barriers which would 
support both short term NDN concerns and longer term regional 
integration goals.

    Question (b). What are the implications of the July 2011 troop 
withdrawal for the region in terms of the economic activity spurred by 
the NDN? How do we plan to stay engaged on the economic development 
front to ensure that local economies do not suffer without the NDN?

    Answer. United States assistance programs in the region focus on 
building the capacity of government, businesses, and producers to make 
them more competitive on world markets and facilitate trade. Our 
assistance to the region began in 1992, and the USG plans to continue 
engagement in areas including the promotion of economic growth well 
beyond 2011. Assistance programs for the region are not specifically 
formulated for the NDN, but rather seek to help the Central Asian 
countries develop robust and diverse economies that are attractive to 
foreign investors and meet international quality standards for 
products.

    Question. Afghan Refugees in Tajikistan.--The U.N. High 
Commissioner for Refugees recently reported that more than 3,600 
Afghans have fled to Tajikistan since January 2008. This has the 
potential to further strain Tajikistan's ability to provide social 
services and create tensions between the local population and the 
refugees.

  <bullet> Do you anticipate that the increase of refugees from 
        Afghanistan will threaten Tajikistan's social and political 
        stability in the short term?
  <bullet> What is the Tajik Government and the international community 
        doing to accommodate the refugees? How is the U.S. Embassy in 
        Dushanbe coordinating a response to the refugee issue with the 
        U.S. Embassy in Kabul?

    Answer. The State Department and the U.S. Embassy in Dushanbe have 
been monitoring closely the situation of refugees and asylum seekers in 
Tajikistan.
    We do not anticipate that the increase in the number of asylum 
seekers from Afghanistan will threaten Tajikistan's social and 
political stability. That said, however, the Tajik law requiring 
refugees arriving since 2000 to settle outside the capital and other 
large cities may strain the infrastructure of small towns. Given the 
reemergence of security threats in northern Afghanistan, the Office of 
the United Nations High Commissioner for Refugees (UNHCR) has 
contingency plans in place to protect and assist asylum seekers fleeing 
from neighboring countries, in case of major refugee outflows.
    The Tajik Government processes applications for asylum, grants 
residency documents to protect asylum seekers from deportation, and 
allows asylum seekers the right to work. The government conducts 
refugee status determinations and has the authority to award 
citizenship to long-residing refugees. UNHCR has provided the Tajik 
Government training and technical assistance to register and protect 
asylum seekers and refugees, and continues to assist in these 
functions. UNHCR provides refugees monthly cash assistance, winter 
clothing, blankets, school uniforms and other school supplies, among 
other items. UNHCR is working with the international community to 
provide refugees opportunities for higher education in Tajikistan. In 
2009, the U.S. Government, through the State Department's Bureau for 
Population, Refugees, and Migration, contributed $1.2 million to UNHCR 
for programs in Central Asia and awarded grants to renovate several 
schools in mixed Tajik-Afghan refugee communities and to increase the 
capacity of a hospital to serve Afghan refugees.
    There is strong coordination between the U.S. Embassy in Kabul and 
the U.S. Embassy in Dushanbe regarding this situation through regular 
reporting and information-sharing.
    The State Department and Embassy Dushanbe will continue to monitor 
the situation of refugees and asylum seekers in Tajikistan and will 
coordinate with the Government of Tajikistan, UNHCR, and the 
international community to increase local capacity to secure durable 
solutions for the vulnerable displaced population.

    Question (a). As you are aware, Yevgeney Zhovtis, founding director 
of the Kazakhstan International Bureau for Human Rights and Rule of 
Law, was sentenced to 4 years in prison for vehicular manslaughter 
following the death of a young man, Kanat Moldabaev.

  <bullet> Can you provide an update on the Embassy's engagement with 
        the Kazakh Government on this issue?
  <bullet> Can you also describe how Mr. Zhovtis' imprisonment has had 
        an impact on the rest of the human rights community in 
        Kazakhstan?

    Answer. Secretary Clinton discussed the Zhovtis case with State 
Secretary-Foreign Minister Saudabayev in September in New York. Deputy 
Secretary Steinberg also discussed the case with Foreign Minister 
Saudabayev during their meeting on the margins of the OSCE Ministerial 
in Athens in December. Ambassador Hoagland has raised the Zhovtis case 
at the highest levels at every available opportunity with Kazakhstani 
officials as have I both in Washington and in Astana. South Central 
Asia Assistant Secretary Blake pressed the Kazakhstani Government 
during his December visit to Astana to ensure a fair and transparent 
appeal process. The U.S. mission to the OSCE has also raised the 
Zhovtis case in the Permanent Council in Vienna. We will continue our 
engagement.
    Civil society organizations both in Kazakhstan and internationally 
have noted the negative impact this prosecution has had on the 
development of Kazakhstan's civil society. The Zhovtis case has also 
galvanized human rights and civil society activists in the U.S. and in 
Kazakhstan to advocate for reform of Kazakhstan's judicial system. The 
U.S. Department of State has also expressed similar concerns. The 
Government of Kazakhstan has indicated that not all legal options have 
been closed. In November, Kazakhstan's Parliament passed amendments 
that would allow the Supreme Court to review cases like the Zhovtis' 
appeal. President Nazarbayev has not yet signed the amendments to bring 
the amendments into force.

    Question (b). Congressional concerns about democratization and 
human rights in Kazakhstan and Uzbekistan have been reflected in 
appropriations legislation, with restrictions on funding for failing to 
meet democratic commitments.

  <bullet> Have these conditionalities resulted in concrete changes in 
        behavior by the authorities in Kazakhstan or Uzbekistan?

    Answer. We have not yet seen significant concrete progress on human 
rights and we remain very concerned about the progress of human rights 
in both countries and continue to seek opportunities to engage them on 
human rights issues.
    With regards to the Government of Kazakhstan, their interest in the 
chairmanship of the Organization for Security and Cooperation in Europe 
(OSCE) provided many opportunities to raise our human rights concerns 
and engage them on their democratic commitments. The United States, 
other nations, the OSCE's Office of Democratic Institutions and Human 
Rights (ODIHR), and a wide range of civil society actors have urged 
Kazakhstan to implement its OSCE commitments and domestic democratic 
reforms.
    Although Kazakhstan has made some steps forward in reforming its 
laws to meet its OSCE commitments, further progress is needed. We 
continue to engage with them and encourage a deepening of their reform 
efforts.
    With regard to Uzbekistan, the United States and the Government of 
Uzbekistan have just completed an inaugural discussion called the 
Annual Bilateral Consultation (ABC). In the discussions, the U.S. side 
raised human rights and democracy concerns as well as U.S. 
congressional conditionalities. We will continue to seek all 
opportunities to engage Uzbekistan on these issues.

    Question. Child Welfare and International Adoptions.--Currently, 6 
Pennsylvanian families and 59 other American families await approval on 
their pending adoptions of Kyrgyz children. I along with a few of my 
Senate colleagues have worked with these families to secure the 
finalization of their adoptions so that these children can leave 
orphanages, which are disrupting their physical and mental growth, and 
into loving homes. These families, however, have been waiting for as 
long as 2 years to finalize their adoption, and they are losing hope 
that the process will ever end since the Kyrgyz parliamentary working 
group on adoption has postponed its discussions on international 
adoptions and pending cases until February 5, 2010.

  <bullet> Ambassador Krol, has the Embassy in Bishkek identified this 
        as a serious problem? If so, is the United States currently 
        undertaking programs to assist the Kyrgyz Republic and other 
        regional governments in improving child welfare standards?

    Answer. Yes, the Department of State (the Department) views this as 
a serious issue. The Department has urged the Kyrgyz Government to 
complete its criminal investigation into alleged fraud and corruption 
in the adoption process and resolve the pending cases so that eligible 
children can be placed in permanent homes. We have repeated this 
message to Kyrgyz officials in Washington and through U.S. Embassy 
Bishkek. Most recently, we called for the resolution of the pending 
cases in a December 7 meeting with seven Kyrgyz delegates in the United 
States for a political study tour. We also raised the issue in a 
November 12 meeting with the Kyrgyz Ambassador to the United States, 
and in an October 5 meeting with the Kyrgyz Foreign Minister. Our 
Ambassador to the Kyrgyz Republic has discussed the pending cases 
repeatedly at high-level meetings there.
    The Department has also raised the visibility of the issue, and 
addressed questions and concerns expressed by Kyrgyz officials and 
shared by some Kyrgyz citizens, through outreach efforts. A U.S. 
adoption expert visited the Kyrgyz Republic in June to share her 
knowledge with Kyrgyz officials, nongovernmental organizations, 
journalists, and others. In May, the Department sponsored an adoption-
themed study tour to the United States for three high-ranking Kyrgyz 
officials. The Kyrgyz officials also met with representatives of the 
families with pending cases as well as some Kyrgyz children who had 
been adopted by Americans. We will continue to urge the Kyrgyz 
Government to resolve the pending cases and act in the best interests 
of children involved in the intercountry adoption process.

    Question. Water and energy are continued sources of tension amongst 
Central Asian countries. Uzbekistan's planned withdrawal from the power 
grid will most likely lead to electricity shortages in Tajikistan and 
Kyrgyzstan. While Uzbekistan fears their water supply with be cut off 
from the upstream countries.

  <bullet> Ambassador Krol, what are the short-term prospects that 
        these disputes over resources could lead to conflict among 
        countries in the region? Are you concerned that water shortages 
        in Central Asia could limit agricultural development in 
        Afghanistan?

    Answer. We are closely monitoring the seasonal electricity 
shortages in Kyrgyzstan and Tajikistan, which could be compounded by 
Uzbekistan's decision in December to withdraw from the regional power 
grid. We are working with the World Bank, U.N., and EU to address the 
long-term water and electricity situation in the region, and we 
discussed regional electricity sales and transit with Uzbek Foreign 
Minister Norov when he was here in Washington December 17-18.
    In both Tajikistan and Kyrgyzstan, a severe winter could lead to 
electricity and heating shortages. Both countries rely heavily on 
hydropower, and water levels are frequently low during the winter. 
Kyrgyzstan is less at risk because it has a seasonal energy swap 
agreement with Kazakhstan, as well as a rationing plan for electricity.
    Uzbekistan's decision to withdraw from the Central Asia Power Grid 
will likely exacerbate these winter electricity shortages, but the 
decision was made in response to Tajikistan's and Kyrgyzstan's 
persistent payment problems and overconsumption from the grid. 
Separately, Tajikistan and Kyrgyzstan are negotiating annual gas 
purchase agreements with Uzbekistan.
    Unfortunately, water management is not a new issue in the region, 
and it has long caused tension between upstream and downstream 
countries. Kazakhstan, Uzbekistan, and Turkmenistan need water for 
agriculture, while Kyrgyzstan and Tajikistan use the water primarily to 
produce energy. As Afghanistan stabilizes, it will need to work with 
its Central Asian neighbors on equitable sharing of water resources. 
Prudent development of the region's hydroresources can increase energy 
supplies and improve management of the agricultural sector, but 
development of hydropower projects both in Afghanistan and in Central 
Asia must be done in cooperation between upstream and downstream 
countries. Water shortages in Central Asia typically occur in 
Uzbekistan and Turkmenistan, but both of these countries provide 
electricity to Afghanistan primarily from gas-fired powerplants. These 
waters shortages are therefore unlikely to impact Afghanistan's 
electricity supplies in the short run.
                                 ______
                                 

       Responses of Martha Brill Olcott to Questions Submitted by
                          Senator Robert Casey

    Question. Chinese President Hu Jintao was in Central Asia this past 
weekend for the opening of a natural gas pipeline which runs from 
Turkmenistan, through Uzbekistan and Kazakhstan. His visit highlights 
China's increased strategic interest in Central Asia. Dr. Olcott, will 
Chinese investments in infrastructure and energy transmission, for 
example, increase much-needed cooperation amongst the Central Asian 
countries? Please discuss pros, as well as cons, of Chinese investment 
in the region.

    Answer. I do not believe that Chinese investments in Central Asia 
will serve to increase much-needed cooperation among the Central Asian 
countries. China's approach to these countries has been to emphasize 
bilateral, rather than multilateral, forms of engagement. This is true 
of the negotiations for the new gas pipeline which runs from 
Turkmenistan through Kazakhstan and Uzbekistan to China. While the 
opening of the pipeline was an event that all of the regional 
Presidents attended, it does not appear that any of these men has been 
made privy to the arrangements made with the other leaders. China does 
not seem to have exerted any diplomatic influence to try and reduce the 
atmosphere of competition that exists between the leaders of these 
countries. If anything, much like Russia, the leaders in Beijing seem 
to feel that it strengthens rather than weakens China's ability to 
negotiate agreements that serve China's own national interests in the 
region. Most of the problems that have arisen as a result of the lack 
of regional cooperation (such as energy and possible water shortages) 
have little potential for impacting on China's own security needs.
    It is not clear that there will be any direct benefit to the United 
States from China's growing role in Central Asia. In recent years there 
had been some hope that U.S. firms might be able to partner with 
Chinese firms to gain access to on-shore oil and gas deposits in 
Turkmenistan. But the announcement of a new Chinese-led consortium to 
develop that country's giant South Iolatan field is strong evidence 
that this will not be the case. This $9.7 billion project does not 
include any major international oil company in its consortium.
    China's presence does ensure that there is competition for Central 
Asia's oil and gas reserves, creating pressure on Russia to offer the 
Central Asians commercially attractive terms. But if anything, in the 
long run, China is likely to offer the Central Asians less attractive 
terms than the Russians do, as Moscow has some ability to pass on 
higher prices to its customers in Europe, while Beijing is using all 
the energy purchased from Central Asia in its own domestic market that 
is heavily subsidized by the Chinese Government.
    However, China has substantial financial resources to bring into 
projects in the region, and they will continue to be attracted to 
invest in Central Asia, given that Beijing considers these neighboring 
countries a region of continuing interest. Their interest is likely to 
be much more sustained than that of either the United States or the 
European Union.

    Question. Dr. Olcott, in your written testimony you mention that 
the ``U.S. has considerable leverage in Kazakhstan,'' given their 
desire for an OSCE conference to be held there in 2010. What 
specifically can the United States do to encourage democratic reform?

    Answer. While the United States will have considerable leverage in 
Kazakhstan until the issue of an OSCE summit is resolved, the best 
chance U.S. officials will have of encouraging democratic reform in 
that country is to do so quietly and behind the scenes, where they 
should pressure Kazakh officials to create greater legal protections 
for independent media, work toward depoliticizing the judicial system, 
and reduce restrictions on independent political activities. President 
Nazarbayev's interest in receiving one of the few meeting slots 
available during the global nuclear summit in April in D.C. is also a 
point of leverage. But expecting that the Kazakh officials will engage 
in public self-criticism is unlikely to yield results.
                                 ______
                                 

        Response of Dr. Stephen Blank to Question Submitted by 
                          Senator Robert Casey

                           islamic extremism
    Question. Dr. Blank, in your testimony you discussed both Islamic 
extremism and clan and factional politics. To what extent is Islamic 
extremism a threat to the security of Central Asia, as compared to 
political factionalism, drug and human trafficking, criminal gangs, and 
ethnic and clan conflict? In what countries is this threat most acute?

    Answer. There is no doubt that Islamic extremism is a threat to all 
of the Central Asian states, but there is no way to measure it 
precisely or even to clearly distinguish it from other sources of 
instability like political factionalism, drug and human trafficking, 
criminal gangs, and ethnic and clan conflict. All of these overlap and 
intermix. The extent of the extremism threat is exaggerated because 
local governments indiscriminately label all opposition as terrorist 
and extremist. However, on its own Islamic extremism is not enough to 
destabilize the current governments in the region. In some cases such 
as Kazakhstan the governments are even stronger than before 2000. 
Nonetheless, were the Taliban to take power in Afghanistan, the 
probability of destabilization would be increased. Taliban-affiliated 
or similar groups originating in Central Asia would be inspired, as 
might their activity, but could not destabilize the existing 
governments without external support. Islamist extremist groups may add 
to instability with other causes such as a succession crisis. To be 
effective, though, the extremist group would probably have to ally with 
one or more other contenders for power. In terms of overall 
vulnerability there is no doubt that Tajikistan and Kyrgyzstan are the 
most vulnerable.

                                  <all>

</pre></body></html>
